<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        THURSDAY, APRIL 7, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:34 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Mark Kirk (chairman) presiding.
    Present: Senators Kirk, Murkowski, Hoeven, Collins, 
Boozman, Cassidy, Tester, Udall, Schatz, Baldwin, and Murphy.

                         DEPARTMENT OF DEFENSE

                   Office of the Secretary Of Defense

STATEMENT OF PETER J. POTOCHNEY, PERFORMING THE DUTIES 
            OF ASSISTANT SECRETARY OF DEFENSE, ENERGY, 
            INSTALLATIONS AND ENVIRONMENT

                 OPENING STATEMENT OF SENATOR MARK KIRK

    Senator Kirk. The subcommittee will come to order. This is 
the third hearing for fiscal year 2017.
    I want to welcome my friend Senator Jon Tester, who we hope 
will be with us at some point later on. He is on the way, I 
think.
    I want to welcome our four witnesses from the Office of 
Secretary Mr. Pete Potochney; from the Army, Assistant 
Secretary Katherine Hammack; from the Navy, Principal Deputy 
Assistant Secretary Iselin; and from the Air Force, we have 
Assistant Secretary Miranda Ballentine.
    We will proceed in this hearing with the early bird rule, 
alternating sides. I ask members to defer from any opening 
statements, and we will go to 5-minute question rounds.
    I will just hold off here, waiting for Mr. Tester to come, 
then we will formally begin. We will just suspend for Jon 
Tester, the senior Senator for the Big Sandy metroplex.
    Let's go to our statements. In this hearing, I want to hear 
how the funding that is being requested directly supports the 
Nation's men and women in uniform and how our military strategy 
is supported by the request.
    Military construction is more than just bricks and mortar. 
It is also something that is a vital part of the strategic 
goals of the United States.
    I want to hear more about how the request strengthens our 
ballistic missile defenses with key allies like Poland. I want 
to hear how this request supports the missile defense in 
Redzikowo, Poland, and to hear how this request improves the 
quality of life for our men and women who choose to wear the 
uniform, and specifically the quality and safety of the places 
where they live.
    I want to recognize our witnesses for their opening 
remarks. We will start you guys off.
    Pete, why don't you kick it off?

                SUMMARY STATEMENT OF PETER J. POTOCHNEY

    Mr. Potochney. Thank you, sir. I am Pete Potochney, 
currently the Deputy Assistant Secretary for basing and also 
the Acting right now, performing the duties of Assistant 
Secretary for Energy, Installations, and Environment, and have 
been acting in that capacity since December and will continue 
to do so until we have a nominee and confirmation.
    I am pleased, proud, and honored to be here. I appreciate 
this opportunity to talk to you, and I also will appreciate my 
remarks being in the record.
    Senator Kirk. Without objection.
    Mr. Potochney. I'll be very brief. The people at this 
table, in my view, and I know for myself, are doing the best we 
can in a tough budget environment. Mr. Chairman, you talked 
about things like quality of life, and how our construction is 
supporting our readiness and our capabilities and the men and 
women who serve us so well. That is what we are about.
    We do the best we can to ensure that those dollars are 
spent wisely, and we do the best we can to compete for those 
resources within a tough budget environment. That is what we 
do. We fight pretty strongly for those resources.
    In that regard, in a tough budget environment, we are 
asking once again for base realignment and closure (BRAC). We 
need it. It allows us to avoid wasting resources on unnecessary 
facilities and channeling those resources into our readiness 
and quality of life, and they are directly linked.
    So we ask that you entertain that, because we do feel it is 
important.
    And I will conclude my remarks with that. Thank you.
    [The statement follows:]
                Prepared Statement of Peter J. Potochney

                              Introduction

    Chairman Kirk, Ranking Member Tester and distinguished members of 
the subcommittee: Thank you for the opportunity to present the 
President's fiscal year 2017 budget request for the Department of 
Defense programs supporting energy, installations, and the environment.
    In my testimony, I will focus first on the budget request. As you 
will note, the administration's budget includes $7.4 billion for 
Military Construction (including family housing), and $10.2 billion for 
Facility Sustainment and Recapitalization. These are both decreases 
from last year, as the Bipartisan Budget Act of 2015 caps overall 
defense spending. Although this request allows a reduction in 
facilities risk due to a slight increase in Sustainment funding by the 
services, the Department is still accepting risk in facilities. As this 
subcommittee well knows, facilities degrade more slowly than readiness, 
and in a constrained budget environment, it is responsible to take risk 
in facilities first.
    My testimony will also address the environmental budget. This 
budget has been relatively stable, and we continue to show progress in 
both our compliance program, where we've seen a decrease in 
environmental violations, and in cleanup, where 84 percent of our 
39,000 sites have reached Response Complete. We remain on track to meet 
our goals of 90 percent Response Complete in 2018, and 95 percent in 
2021.
    As you know, Operational Energy Plans and Programs merged with 
Installations and Environment office in 2015 to form the Office of 
Assistant Secretary of Defense for Energy, Installations and 
Environment (EI&E). EI&E now oversees all energy that is required for 
training, moving and sustaining military forces and weapons platforms 
for military operations, as well as energy used on military 
installations. While the budget request for Military Construction and 
Environmental Remediation programs includes specific line items, the 
Department's programs for Operational Energy and Installation Energy 
are subsumed into other accounts. With that in mind, I will summarize 
the newly released 2016 Operational Energy Strategy and address the 
budgets for the Department's operational and installation energy 
portfolio.
    In addition to budget, I will also highlight a handful of top 
priority issues--namely, the administration's request for BRAC 
authority, European consolidation efforts, European Reassurance 
Initiative, the status of the movement of Marines from Okinawa to Guam, 
an overview of our energy programs, and climate change.

   Fiscal Year 2017 Budget Request--Military Construction and Family 
                                Housing

    The President's fiscal year 2017 budget requests $7.4 billion for 
the Military Construction (MILCON) Appropriation--a decrease of 
approximately $1.0 billion from the fiscal year 2016 budget request 
(see Table 1 below). This decrease is directly attributable to the 
resourcing constraints established by the Bipartisan Budget Agreement 
and the Department's need to fund higher priority readiness and 
weapon's modernization program. The request does recognize the 
Department's need to invest in facilities that address critical mission 
requirements and life, health, and safety concerns, while acknowledging 
the constrained fiscal environment. In addition to new construction 
needed to bed-down forces returning from overseas bases, this funding 
will be used to restore and modernize enduring facilities, acquire new 
facilities where needed, and eliminate those that are excess or 
obsolete. The fiscal year 2017 MILCON request includes projects that 
directly support operations and training, maintenance and production, 
and projects to take care of our people and their families, such as 
medical treatment facilities, unaccompanied personnel housing, and 
schools.
    As shown by the decrease in this year's budget request, the DOD 
Components continue to take risk in the MILCON program in order to 
lessen risk in other operational and training budgets. While the 
Department's fiscal year 2017 budget request funds critical projects 
that sustain our warfighting and readiness postures, taking continued 
risk across our facilities inventory will degrade our facilities and 
result in the need for significant investment for facility repair and 
replacement in the future. Our limited MILCON budget for fiscal year 
2017 leaves limited room for projects that would improve aging 
workplaces, and therefore, could adversely impact routine operations 
and the quality of life for our personnel.

                 TABLE 1. MILCON APPROPRIATION REQUEST, FISCAL YEAR 2016 VERSUS FISCAL YEAR 2017
----------------------------------------------------------------------------------------------------------------
                                                                                        Change From Fiscal Year
                                                            Fiscal Year  Fiscal Year             2016
                     Account Category                           2016         2017    ---------------------------
                                                             Request ($   Request ($   Funding ($
                                                             Millions)    Millions)     Millions)      Percent
----------------------------------------------------------------------------------------------------------------
Military Construction.....................................        6,653        5,741         (912)          (14)
Base Realignment and Closure..............................          251          205          (46)          (18)
Family Housing............................................        1,413        1,320          (93)           (7)
Chemical Demilitarization.................................            0            0            0             0
NATO Security Investment Program..........................          120          178           58            48
                                                           -----------------------------------------------------
      TOTAL...............................................        8,437        7,444         (993)          (12)
----------------------------------------------------------------------------------------------------------------

                         military construction
    The fiscal year 2017 military construction request of $6.1 billion 
addresses routine requirements for construction at enduring 
installations stateside and overseas, and for specific programs such as 
Base Realignment and Closure and the NATO Security Investment Program. 
This is a 13 percent decrease from our fiscal year 2016 request, and 
this level of funding remains significantly less than historic trends 
prior to the Budget Control Act. In addition, we are targeting MILCON 
funds to three key areas.
    First and foremost, our MILCON request supports the Department's 
operational missions. MILCON is key to supporting forward deployed 
missions as well as implementing initiatives such as the Asia-Pacific 
rebalance, European Infrastructure Consolidation, European Reassurance 
Initiative, and cyber mission effectiveness. Our fiscal year 2017 
budget request includes $473 million for 13 F-35A/B/C maintenance, 
production, training, and support projects to accommodate initial F-35 
deliveries; $194 million to support 8 fuel infrastructure projects; 
$62.2 million for a power upgrades utility project in support of the 
U.S. Marines relocation to Guam; $260 million for recapitalization of 
National Security Agency facilities; and $53.1 million for the third 
phase of a Joint Intelligence Analysis Complex Consolidation at Royal 
Air Force Croughton, United Kingdom. The budget request also includes 
$470 million to address new capabilities/mission, force structure 
growth, and antiquated infrastructure for Special Operations Forces; 
$176 million for 3 Missile Defense Agency projects, including $156 
million for Phase 1 of the Long Range Discrimination Radar System 
Complex in Alaska; a $76 million investment to recapitalize facilities 
at three Naval Shipyards; and $124 million for 4 unmanned aerial 
vehicle operational facilities.
    Second, our fiscal year 2017 military construction budget request 
continues the Department's 10 year plan (which started in fiscal year 
2011) to replace and recapitalize more than half of the DODEA schools. 
Funding in fiscal year 2017 includes $246 million to address four 
schools in poor condition at Dover, Delaware; Kaiserslautern, Germany; 
Kadena AB, Japan; and RAF Croughton, United Kingdom.
    Third, the fiscal year 2017 budget request includes $304 million 
for medical facility recapitalization. This includes $50 million for 
the first increment of a $510 million project for the Walter Reed 
Medical Center Addition/Alteration; $58.1 million for increment six (of 
a $982 million seven increment project) for the Medical Center 
Replacement at Rhine Ordnance Barracks in Germany; and $195.9 million 
for five other smaller medical/dental facilities. All the projects are 
crucial for our continued delivery of quality healthcare that our 
service members and their families deserve whether stationed stateside 
or during overseas deployments.
                    overseas contingency operations
    The fiscal year 2017 Overseas Contingency Operations budget request 
includes $47.9 million for projects supporting the mission in East 
Africa (Djibouti). The request also includes $113.6 million in European 
Reassurance Initiative military construction funding for military 
construction activities for the Active components of all Military 
Services, and Defense-Wide Activities supporting military operations in 
Europe in direct support of NATO, Operation Freedom's Sentinel, and 
Operation Inherent Resolve. Funds provided would bolster security of 
U.S. NATO Allies and partner states in Europe and deter aggressive 
actors in the region by enhancing prepositioning and weapons storage 
capabilities, improving airfield and support infrastructure, providing 
5th generation warfighting capability, and building partnership 
capacity.
                    family and unaccompanied housing
    A fundamental priority of the Department is to support military 
personnel and their families to improve their quality of life by 
ensuring access to suitable, affordable housing. Service members are 
engaged in the front lines of protecting our national security and they 
deserve the best possible living and working conditions. Sustaining the 
quality of life of our people is crucial to recruitment, retention, 
readiness and morale.
    Our fiscal year 2017 budget request includes $1.3 billion to fund 
construction, operation, and maintenance of Government-owned and leased 
family housing worldwide as well as to provide housing referral 
services to assist military members in renting or buying private sector 
housing, and oversight of privatized family housing (see Table 2 
below). Included in this request is $356 million for construction and 
improvements; $232 million for operations (including housing referral 
services); $229 million for maintenance; $154 million for utilities; 
and $349 million for leasing and privatized housing oversight.
    This funding request supports over 38,000 Government-owned family 
housing units, almost all of which are on enduring bases in foreign 
countries now that the Department has privatized the vast majority of 
our family housing in the United States (over 206,000 units). The 
Department is also leasing more than 9,000 family housing units where 
Government-owned or privatized housing is not feasible. Our request 
also includes $3.3 million to support administration of the Military 
Housing Privatization Initiative (MHPI) Program as prescribed by the 
Federal Credit Reform Act of 1990, to ensure the project owners 
continue to fund future capital repairs and replacements as necessary 
to provide quality housing for military families and to ensure that 
these projects remain viable for their 40-50 year lifespan.
    In fiscal year 2015, the Department notified Congress of DOD's 
intent to transfer $96 million of Navy family housing construction 
funds into the Department's Family Housing Improvement Fund (FHIF) to 
execute Hawaii Phase 6 to support Marine Corps housing requirements in 
Hawaii. Execution of Hawaii Phase 6 brings the Department's total 
privatized family housing inventory to nearly 202,000 homes.

                TABLE 2. FAMILY HOUSING BUDGET REQUEST, FISCAL YEAR 2016 VERSUS FISCAL YEAR 2017
----------------------------------------------------------------------------------------------------------------
                                                                                        Change From Fiscal Year
                                                            Fiscal Year  Fiscal Year             2016
                     Account Category                           2016         2017    ---------------------------
                                                             Request ($   Request ($   Funding ($
                                                             Millions)    Millions)     Millions)      Percent
----------------------------------------------------------------------------------------------------------------
Family Housing Construction/Improvements..................          277          356           79            29
Family Housing Operations & Maintenance...................        1,136          961         (175)          (15)
Family Housing Improvement Fund \1\.......................            0            3            3           100
                                                           -----------------------------------------------------
      TOTAL...............................................        1,413        1,320           93            (7)
----------------------------------------------------------------------------------------------------------------
\1\ We made no fiscal year 2016 request for funds to oversee privatized housing because we had sufficient fiscal
  year 2015 cost savings to cover our fiscal year 2016 expenses.

    The Department also continues to encourage the modernization of 
Unaccompanied Personnel Housing (UPH) to improve privacy and provide 
greater amenities. In recent years, we have heavily invested in UPH to 
support initiatives such as BRAC, global restationing, force structure 
modernization, and the Navy's Homeport Ashore initiative. However, this 
constrained budget request only includes five UPH projects totaling 
$161 million, all of which are for transient personnel or trainees such 
as a $67 million Recruit Dormitory at Joint Base San Antonio, Texas.
              facilities sustainment and recapitalization
    In addition to new construction, the Department invests significant 
funds in maintenance and repair of our existing facilities. Sustainment 
represents the Department's single most important investment in the 
condition of its facilities. It includes regularly scheduled 
maintenance and repair or replacement of facility components--the 
periodic, predictable investments that should be made across the 
service life of a facility to slow its deterioration, optimize the 
Department's investment, and save resources over the long term. Proper 
sustainment slows deterioration, maintains safety, preserves 
performance over the life of a facility, and helps improve the 
productivity and quality of life of our personnel.

       TABLE 3. SUSTAINMENT AND RECAPITALIZATION BUDGET REQUEST, FISCAL YEAR 2016 VERSUS FISCAL YEAR 2017
----------------------------------------------------------------------------------------------------------------
                                                                                        Change From Fiscal Year
                                                            Fiscal Year  Fiscal Year             2016
                     Account Category                           2016         2017    ---------------------------
                                                             Request ($   Request ($   Funding ($
                                                             Millions)    Millions)     Millions)      Percent
----------------------------------------------------------------------------------------------------------------
Sustainment (O&M).........................................        8,022        7,450         (572)           (7)
Recapitalization (O&M)....................................        2,563        2,088         (475)          (19)
                                                           -----------------------------------------------------
      TOTAL...............................................       10,585        9,538       (1,047)          (10)
----------------------------------------------------------------------------------------------------------------

    The accounts that fund these activities have taken significant cuts 
in recent years. For fiscal year 2017, the Department's budget request 
includes $7.4 billion for sustainment and $2.1 billion for 
recapitalization (see Table 3 above) in Operations & Maintenance 
funding only. The combined level of sustainment and recapitalization 
funding ($9.5 billion) is a 10 percent decrease from the fiscal year 
2016 President's budget (PB) request ($10.6 billion), and reflects an 
acceptance of significant risk in DOD facilities. In fact, the request 
supports average DOD-wide sustainment funding level that equates to 74 
percent of the FSM requirement as compared to the Department's goal to 
fund sustainment at 90 percent of modeled requirements.
    Recent and ongoing budget constraints have limited investment in 
facilities sustainment and recapitalization to the point that 11.7 
percent of the Department's facility inventory is in ``poor'' condition 
(Facility Condition Index (FCI) between 60 and 79 percent) and another 
14.8 percent is in ``failing'' condition (FCI below 60 percent) based 
on recent facility condition assessment data. Compared to last year 
(see Table 4), the Department is seeing more poor facilities moving 
into failing conditions. Until the out-year sequestration challenges 
are overcome, the Department will continue to take risk in funding to 
sustain and recapitalize existing facilities. This will ultimately 
result in DOD facing larger bills in the out-years to restore or 
replace facilities that deteriorate prematurely.

            TABLE 4.--COMPARISON OF FISCAL YEAR 2014 AND FISCAL YEAR 2015 FACILITY CONDITION INDICES
----------------------------------------------------------------------------------------------------------------
                                               End of Fiscal Year 2014 FCI (%)   End of Fiscal Year 2015 FCI (%)
                                             -------------------------------------------------------------------
                                               Poor (60-79%)    Failing (<60%)   Poor (60-79%)    Failing (<60%)
----------------------------------------------------------------------------------------------------------------
Army........................................             31.3             10.2             12.8             26.1
Navy........................................             17.4              6.4             15.8              6.4
Air Force...................................              2.6              4.1              5.7              3.9
Washington Headquarters Service.............              2.2              4.7              2.1              5.8
                                             -------------------------------------------------------------------
      TOTAL.................................             19.7              7.4             11.7             14.8
----------------------------------------------------------------------------------------------------------------

        Fiscal Year 2017 Budget Request--Environmental Programs

    The Department has long made it a priority to protect the 
environment on our installations, not only to preserve irreplaceable 
resources for future generations, but to ensure that we have the land, 
water and airspace we need to sustain military readiness. To achieve 
this objective, the Department has made a commitment to continuous 
improvement, pursuit of greater efficiency and adoption of new 
technology. In the President's fiscal year 2017 budget, we are 
requesting $3.4 billion, a slight decrease from fiscal year 2016, to 
continue the legacy of excellence in our environmental programs.
    The table below outlines the entirety of the DOD's environmental 
program, but I would like to highlight a few key elements where we are 
demonstrating significant progress--specifically, our environmental 
restoration program, our efforts to leverage technology to reduce the 
cost of cleanup, and the Readiness and Environmental Protection 
Integration (REPI) program.

             TABLE 5: ENVIRONMENTAL PROGRAM BUDGET REQUEST, FISCAL YEAR 2017 VERSUS FISCAL YEAR 2016
----------------------------------------------------------------------------------------------------------------
                                                                                        Change From Fiscal Year
                                                            Fiscal Year  Fiscal Year             2016
                     Account Category                           2016         2017    ---------------------------
                                                             Request ($   Request ($   Funding ($
                                                             Millions)    Millions)    Millions)      Percent
----------------------------------------------------------------------------------------------------------------
Environmental Restoration.................................        1,107        1,030          -77           -7
Environmental Compliance..................................        1,389        1,493          103            7
Environmental Conservation................................          389          420           31            8
Pollution Prevention......................................          101           84          -17          -17
Environmental Technology..................................          200          186          -14           -7
BRAC Environmental........................................          217          181          -36          -17
                                                           -----------------------------------------------------
      TOTAL...............................................        3,405        3,395          -10           -0.3
----------------------------------------------------------------------------------------------------------------

                       environmental restoration
    We are requesting $1.2 billion to continue cleanup efforts at 
remaining Installation Restoration Program (IRP--focused on cleanup of 
hazardous substances, pollutants, and contaminants) and Military 
Munitions Response Program (MMRP--focused on the removal of unexploded 
ordnance and discarded munitions) sites. This includes $1.0 billion for 
``Environmental Restoration,'' which encompasses active installations 
and Formerly Used Defense Sites (FUDS) locations and $181 million for 
``BRAC Environmental.'' The amount of BRAC Environmental funds 
requested will be augmented by $108 million of land sale revenue and 
prior year, unobligated funds, bringing the total amount of BRAC 
Environmental funding planned for obligation in fiscal year 2017 to 
$289 million. These investments help to ensure DOD continues to make 
property at BRAC locations safe and environmentally suitable for 
transfer. We remain engaged with the Military Departments to ensure 
they are executing plans to spend remaining unobligated balances in the 
BRAC account.

                                     TABLE 6: PROGRESS TOWARD CLEANUP GOALS
----------------------------------------------------------------------------------------------------------------
  Goal: Achieve Response Complete at 90% and 95% of Active and BRAC IRP and MMRP sites, and FUDS IRP sites, by
                              fiscal year 2018 and  fiscal year 2021, respectively
-----------------------------------------------------------------------------------------------------------------
                                                               Projected Status at the   Projected Status at the
                                     Status as of the end of   end of fiscal year 2018   end of fiscal year 2021
                                      fiscal year 2015  (%)              (%)                       (%)
----------------------------------------------------------------------------------------------------------------
Army..............................                       90                        94                        97
Navy..............................                       80                        86                        92
Air Force.........................                       80                        89                        94
DLA...............................                       86                        97                        97
FUDS..............................                       80                        89                        94
                                   -----------------------------------------------------------------------------
      Total.......................                       84                        91                        95
----------------------------------------------------------------------------------------------------------------

    We are cleaning up sites on our active installations in parallel 
with those on bases closed in previous BRAC rounds--cleanup is not 
something that DOD pursues only when a base is closed. In fact, the 
significant progress we have made over the last 20 years cleaning up 
contaminated sites on active DOD installations is expected to reduce 
the residual environmental liability in the disposition of our property 
made excess through the BRAC process or other efforts.
    By the end of 2015, the Department, in cooperation with State 
agencies and the Environmental Protection Agency, completed cleanup 
activities at 84 percent of Active and BRAC IRP and MMRP sites, and 
FUDS IRP sites, and is now monitoring the results. During fiscal year 
2015 alone, the Department completed cleanup at over 870 sites. Of the 
roughly 39,500 restoration sites, almost 31,500 are now in monitoring 
status or cleanup completed. We are currently on track to meet our 
program goals--anticipating complete cleanup at 95 percent of Active 
and BRAC IRP and MMRP sites, and FUDS IRP sites, by the end of 2021.
    Our focus remains on continuous improvement in the restoration 
program: minimizing overhead; adopting new technologies to reduce cost 
and accelerate cleanup; refining and standardizing our cost estimating; 
and improving our relationships with State regulators through increased 
dialogue. All of these initiatives help ensure that we make the best 
use of our available resources to complete cleanup.
                        environmental technology
    A key part of DOD's approach to meeting its environmental 
obligations and improving its performance is its pursuit of advances in 
science and technology. The Department has a long record of success 
when it comes to developing innovative environmental technologies and 
getting them transferred out of the laboratory and into actual use on 
our remediation sites, installations, ranges, depots and other 
industrial facilities. These same technologies are also now widely used 
at non-Defense sites helping the Nation as a whole.
    While the fiscal year 2017 budget request for Environmental 
Technology overall is $191 million, our core efforts are conducted and 
coordinated through two key programs--the Strategic Environmental 
Research and Development Program (SERDP--focused on basic research) and 
the Environmental Security Technology Certification Program (ESTCP--
which validates more mature technologies to transition them to 
widespread use). The fiscal year 2017 budget request includes $65 
million for SERDP and $32 million for ESTCP for environmental 
technology demonstrations, with an additional $20 million requested 
specifically for energy technology demonstrations.
    These programs have already achieved demonstrable results and have 
the potential to reduce the environmental liability and costs of the 
Department--developing new ways of treating groundwater contamination, 
reducing the life-cycle costs of multiple weapons systems, and 
improving natural resource management.
    As an example, this past year SERDP-sponsored project to conduct 
basic research that is will develop an environmentally benign Chemical 
Agent Resistant Coating (CARC), which is critical technology for the 
protection of military assets. Current CARC coatings contribute 
approximately 2.3 million pounds of volatile organize compounds (VOCs) 
and hazardous air pollutants (HAPs) to the environment each year. The 
new novel powder CARC is absent of solvent, emits nearly zero VOCs, can 
be recycled, and is compatible with existing CARC systems. In addition, 
testing to date proves that the exterior durability of this coating is 
superior to any liquid CARC system, supporting DOD's initiative for 
corrosion prevention and mitigation. Coating products are currently in 
transition to Original Equipment Manufacturers, Depots, and the Defense 
Logistics Agency (DLA).
    Looking ahead, our environmental technology investments are focused 
on the Department's evolving requirements. In the area of Environmental 
Restoration, we are launching a new 3-year initiative to support 
sustainable range management by researching the environmental impacts 
of new munitions compounds and we will continue our investments in 
technologies to address the challenges of contaminated groundwater 
sites where no good technical solutions are currently available. We are 
working to understand the behavior of contaminants in fractured bedrock 
and large dilute plumes, which represent a large fraction of these 
sites, and to develop treatment and management strategies. We will 
continue our efforts to develop the science and tools needed to meet 
the Department's obligations to assess and adapt to climate change. 
Finally, to transition the important work of improving the 
sustainability of our industrial operations and reducing life-cycle 
costs by eliminating toxic and hazardous materials from our production 
and maintenance processes we are initiating a program to demonstrate 
that our most hazardous chemicals can be eliminated from a maintenance 
production line.
         environmental conservation and compatible development
    To maintain access to the land, water and airspace needed to 
support our mission needs, the Department continues to successfully 
manage the natural resources entrusted to us--including protecting the 
many threatened and endangered species found on our lands. DOD manages 
approximately 25 million acres containing many high-quality and unique 
habitats that provide food and shelter for nearly 520 species-at-risk 
and over 400 that are federally listed as threatened or endangered 
species. That is 9 times more species per acre than the Bureau of Land 
Management, 6 times more per acre than the United States Fish and 
Wildlife Service (USFWS), 4.5 times more per acre than the Forest 
Service, and 3.5 times more per acre than the National Park Service. A 
surprising number of rare species are found only on military lands--
including more than 15 listed species and at least 75 species-at-risk.
    The fiscal year 2017 budget request for Conservation is $420 
million. The Department invests these funds to manage its imperiled 
species as well as all of its natural resources in an effort to sustain 
the high quality lands our service personnel need for testing, training 
and operational activities, and to maximize the flexibility our 
servicemen and women need to effectively use those lands. Species 
endangerment and habitat degradation can and does have direct mission-
restriction impacts. That is one reason we work hard to prevent species 
from becoming listed and, if they do become listed, to manage these 
species and their habitat in ways that sustain the resource and enable 
our ability to test and train. All of our plans now adequately address 
these species, and we have successfully and consistently avoided 
critical habitat designations because our plans adequately address 
management concerns for species that exist on our lands. Getting ahead 
of any future listings has been a prime, natural resource objective for 
the last several years and will remain so in the future.
Readiness and Environmental Protection Integration (REPI) Program
    To help ensure DOD sustains its national defense mission and 
protects species under duress, the Department has developed a strategy 
that supports conservation beyond installation boundaries. Under this 
strategy DOD engages with other governmental and non-governmental 
partners, as well as private landowners, to develop initiatives and 
agreements for protecting species for the purposes of precluding or 
mitigating regulatory restrictions on training, testing, and operations 
on DOD lands. Expanding the scale and options for protecting species on 
non-DOD land benefits conservation objectives while helping sustain 
access to, and operational use, of DOD live training and test domains.
    This strategic focus is a key element of the Readiness and 
Environmental Protection Integration (REPI) Program. Under REPI, the 
Department partners with conservation organizations and State and local 
governments to preserve buffer land and sensitive habitat near 
installations and ranges. Preserving these areas allows the Department 
to avoid more costly alternatives such as workarounds, restricted or 
unrealistic training approaches, or investments to replace existing 
test and training capability. Simultaneously, these efforts ease the 
on-installation species management burden and reduce the possibility of 
restricted activities, ultimately providing more flexibility for 
commanders to execute their missions.
    Included within the $420 million for Conservation, $60 million is 
directed to the REPI Program. The REPI Program is a cost-effective tool 
to protect the Nation's existing training, testing, and operational 
capabilities at a time of decreasing resources. In the last 13 years, 
REPI partnerships have protected more than 437,000 acres of land around 
86 installations in 29 States. In addition to the tangible benefits to 
training, testing, and operations, these efforts have resulted in 
significant contributions to biodiversity and recovery actions 
supporting threatened, endangered and candidate species.
    The REPI Program supports the warfighter and protects the taxpayer 
because it multiplies the Department's investments through unique cost-
sharing agreements. Even in these difficult economic times, REPI is 
able to directly leverage the Department's investments at least one-to-
one with those of our partners, effectively securing critical buffers 
around our installations for half-price.
    In addition, DOD, along with the Departments of the Interior and 
Agriculture, continues to advance the Sentinel Landscapes Partnership 
to protect large landscapes where conservation, working lands, and 
national defense interests converge--places defined as Sentinel 
Landscapes. Established in 2013, the Sentinel Landscapes Partnership 
further strengthens interagency coordination and provides taxpayers 
with the greatest leverage of their funds by aligning Federal programs 
to advance the mutually-beneficial goals of each agency.
    Thus far, three Sentinel Landscapes have been identified around 
Joint Base Lewis-McChord, Washington; Fort Huachuca, Arizona; and Naval 
Air Station (NAS) Patuxent River and the Atlantic Test Ranges, 
Maryland. The pilot Sentinel Landscape project at JBLM influenced the 
USFWS decision to avoid listing a butterfly species in Washington, 
Oregon, and California. The USFWS cited the ``high level of protection 
against further losses of habitat or populations'' from investments 
made by Joint Base Lewis-McChord's REPI partnership, actions that allow 
significant maneuver areas to remain available and unconstrained for 
active and intense military use at JBLM. At Fort Huachuca, NAS Patuxent 
River and the Atlantic Test Ranges, DOD is working with USFWS, the 
Natural Resources Conservation Service, the U.S. Forest Service, and a 
variety of State and private conservation organizations to protect 
important swaths of special use airspace used for aircraft testing and 
training, while also benefiting ecologically sensitive watersheds and 
the installations, wildlife, and working lands dependent on those 
resources.

            Fiscal Year 2017 Budget Request--Energy Programs

    Unlike the Department's Military Construction and Environmental 
Remediation programs, where the budget request includes specific line 
items, our energy programs are subsumed into other accounts. The 
following sections describe the Energy portion of the budget request. 
Further discussion of energy follows in the highlighted issues section.
                           operational energy
    In fiscal year 2017, the Department's budget request includes an 
estimated $9.8 billion for 93.3 million barrels of fuel. In order to 
increase warfighting capability and reduce operational risk, the 
Department's fiscal year 2017 budget request also includes $2.5 billion 
for adaptations and improvements in our use of operational energy. 
Operational energy is the energy used to power aircraft, ships, combat 
vehicles, and mobile power generation at contingency bases. While there 
is no explicit budget request for Operational Energy, these investments 
across multiple accounts and appropriations are intended specifically 
to improve military capability.
    Within this overall request, the Department is requesting $37.3M in 
RDT&E funding to support the Operational Energy Capabilities 
Improvement Fund (OECIF). OECIF provides funding to DOD research 
programs that improve operational energy performance organized around a 
specific annual theme or focus area, as well as sustain funding to 
those programs already underway. The fiscal year 2017 President's 
budget will provide funding for new programs, as well as support those 
programs established in fiscal year 2014-fiscal year 2016.
    Finally, the Department is requesting $5.4 million in fiscal year 
2017 to fund the operations of OASD(EI&E) and oversee operational 
energy activities. Each year, EI&E certifies that the President's 
budget is adequate for carrying out the Department's Operational Energy 
Strategy. The full certification report, which will be provided to 
Congress in the near future, will provide a more comprehensive 
assessment of the alignment of operational energy initiatives with the 
goals of the recently released 2016 Operational Energy Strategy.
2016 Operational Energy Strategy
    Reflecting lessons learned, strategic guidance, and the evolving 
operational environment, the 2016 Operational Energy Strategy is 
designed to improve our ability to deliver the operational energy 
needed to deploy and sustain forces in an operational environment 
characterized by peer competitors, asymmetric insurgents, and 
unforgiving geography. The strategy identifies the following three 
objectives:

  --Increase Future Warfighting Capability. Foremost, the strategy 
        focuses on increasing warfighter capability through energy-
        informed force development. In addition to energy Key 
        Performance Perimeters (eKPP) informed by energy supportability 
        analyses that improve the combat effectiveness and 
        supportability of major acquisition programs, the Department 
        will continue to invest in energy innovation that improves the 
        long-term capability of the Department, such as increasing the 
        unrefueled range or endurance of platforms. With this knowledge 
        of inherent energy constraints and risks, the Military 
        Departments will be better able to make energy-informed 
        decisions related to force development and future capabilities.
  --Identify and Reduce Logistics and Operational Risks. To effectively 
        reduce logistics risks, the Department will address energy 
        risks in near-term operation plans as well as more exploratory, 
        longer-term concepts of operation. Initiatives that fall into 
        this category seek to mitigate warfighting gaps found in 
        Integrated Priority Lists, OPLANs, and wargames. The 
        Department's focus on risk will ensure future forces are better 
        aligned to mitigate potential threats to operations.
  --Enhance Mission Effectiveness of the Current Force. Finally, the 
        strategy will improve the effectiveness of U.S. Forces 
        operating around the globe today. To do so, the Department will 
        emphasize improved energy use in operations and training, and 
        enhanced education of operators, logisticians, and system 
        developers. These initiatives may include material and non-
        material enhancements to day to day operations, as well as 
        adaptations in training, exercises, and professional military 
        education.

    In coordination with the Combatant Commands, Military Departments, 
Joint Staff, and Defense Agencies, my office is overseeing the 
execution of 15 targets arrayed across the three objectives. For 
instance, we are supporting Joint Staff oversight of the energy KPP, 
facilitating operational energy advisors at the Combatant Commands, and 
assessing the role of operational energy in war games and operation 
plan reviews. In addition to the Defense Operational Energy Board, we 
will use existing requirements, acquisition, programming, and budgeting 
processes to review Department progress against these targets.
                          installation energy
    As with Operational Energy, there is no explicit request in the 
overall budget for Facilities Energy--utilities expenditures are 
included in the Base Operations O&M request. Facilities Energy remains 
our single largest base operating cost and in fiscal year 2015, we 
spent $3.9 billion to heat, cool, and provide electricity to our 
buildings. To reduce this cost the Department is pursuing energy 
efficiencies through building improvements, new construction, and third 
party investments.
    The Department's fiscal year 2017 budget request includes 
approximately $618 million for investments in conservation and energy 
efficiency, most of which will be directed to existing buildings. The 
majority ($468 million) is in the Military Components' operations and 
maintenance accounts, to be used for sustainment and recapitalization 
projects. Such projects typically involve retrofits to incorporate 
improved lighting, high-efficiency HVAC systems, double-pane windows, 
energy management control systems, and new roofs. The remainder ($150 
million) is for the Energy Conservation Investment Program (ECIP), a 
Military Construction account used to implement energy efficiency, 
water conservation, and renewable energy projects. Each individual ECIP 
project has a positive payback (i.e. Savings to Investment Ratio (SIR) 
> 1.0) and the overall program has a combined SIR greater than 2.0. 
This means for every dollar we invest in ECIP, we generate more than 
two dollars in savings.
    The Military Component investments include activities that would be 
considered regular maintenance and budgeted within the O&M accounts for 
Facilities Sustainment, Restoration, and Maintenance activities. The 
risk that has been accepted in those accounts will not only result in 
fewer energy projects, but failing to perform proper maintenance on our 
buildings will without question have a negative impact on our energy 
usage. In plain terms, upgrades to air conditioning systems will not 
reduce energy usage as projected if the roof is leaking or the windows 
are broken.
    In addition to retrofitting existing buildings, we continue to 
drive efficiency in our new construction. Our new buildings must be 
constructed using the high-performance sustainable buildings standards 
issued by my office 2 years ago which include greater energy efficiency 
requirements.
    Additionally, the Department is taking advantage of third-party 
financing through Energy Savings Performance Contracts (ESPCs) and 
Utility Energy Service Contracts (UESCs), to implement energy 
efficiency improvements in our existing buildings. Under these 
contracts private energy firms or utility companies make energy 
upgrades to our buildings and are paid back over time using utility 
bill savings.
Facilities Energy Management
    With respect to facilities energy management the Department has 
made great progress towards improving the energy efficiency of its 
installations. Since fiscal year 2009, the Department reduced the 
energy consumed on our military bases by 10 percent, avoiding over $1.2 
billion in operating costs.
    In addition to using appropriated funding for energy conservation 
and efficiency initiatives, the Department is continuing to take 
advantage of third-party financing tools through energy performance 
based contracts (ESPCs and UESCs) to implement energy efficiency 
improvements in our existing buildings. While such performance-based 
contracts have long been part of the Department's energy strategy, the 
Services have significantly increased the use of ESPCs and UESCs in 
response to the President's Performance Contracting Challenge (PPCC) 
originally issued in December 2011 and extended in May 2014. The PPCC 
challenged Federal agencies to award $4 billion in energy performance 
based contacts by the end December 2016. The DOD's commitment to the 
challenge is just over $2 billion in contracts. To date the Department 
has awarded $1.3 billion in ESPCs and UESCs.
    Regarding renewable energy, the Department has a goal to deploy 3 
gigawatts of renewable energy by fiscal year 2025. Most renewable 
energy projects we pursue are financed by private developers. DOD's 
authorities for renewable energy--particularly the ability to sign 
power purchase agreements of up to 30 years--provide incentives for 
private firms to fund the projects themselves, and can also provide a 
strong business case that they are able to offer DOD lower energy rates 
than are being paid currently. The DOD does not make any capital 
investment in these renewable energy projects. When feasible, renewable 
energy projects are being built with micro-grid-ready applications that 
can enable the provision of continuous power in the event of a 
disruption.
    As of the end of fiscal year 2015 the Department has 702 megawatts 
in renewable energy projects in operation. The services also have more 
than 550 megawatts of projects under construction including a 15 MW 
Solar PV/50 MW wind ``hybrid'' project at Ft Hood, Texas and an off-
site 210 MW solar PV facility that will supply power to 14 Department 
of Navy installations in California. Further, there is another 1.3 
gigawatts of renewable energy projects in various stages of 
development; putting the Department well on track towards meeting its 3 
gigawatt goal.

                           Highlighted Issues

   merger of the energy, installations, and environment organizations
    As you know, the fiscal year 2015 National Defense Authorization 
Act directed the merger of the Assistant Secretary of Defense for 
Operational Energy Plans and Programs and the Deputy Under Secretary of 
Defense for Installations and Environment to create the Assistant 
Secretary of Defense for Energy, Installations and Environment. The ASD 
(EI&E) is now the principle advisor to the Secretary of Defense for 
Acquisition, Technology, and Logistics on matters relating to energy, 
installations, and environment and the principal advisor to the 
Secretary of Defense and the Deputy Secretary of Defense regarding 
operational energy plans and programs.
    The Department is currently developing the required report on the 
status of the merger, and will provide that to the Congress later this 
year. I can tell you that through the merger operational energy 
functions have benefited from additional resources and collaboration 
with complementary functions related to installation energy, facilities 
investment and management, and basing.
                      base realignment and closure
    Given the need to find efficiencies and reexamine how our 
infrastructure is configured, the Administration is requesting the 
authority from Congress to conduct a 2019 BRAC round. As indicated in 
testimony last year, the Department has excess capacity. The Army and 
Air Force have analyzed their infrastructure and have found that they 
have 18 percent and 30 percent excess capacity, respectively. We are 
currently conducting a DOD wide parametric analysis as directed by the 
fiscal year 2016 National Defense Authorization Act, which will likely 
indicate excess of around 20 percent. This level of excess is not 
surprising given the fact that in 2004 we found that the Department had 
24 percent excess and BRAC 2005 reduced infrastructure by 3.4 percent 
(as measured by plant replacement value).
    As we have said, a new BRAC round will be different than BRAC 2005. 
The new round will be efficiency focused. It will save about $2 billion 
a year after implementation; with costs and savings during the 6 year 
implementation being a wash at approximately $7 billion. Our projection 
is based on the efficiency rounds of the 1990s.
    In addition to being a proven process that yields savings, BRAC has 
several advantages that we have outlined before in our testimony. I 
want to highlight a few of these:

  --BRAC is comprehensive and thorough--all installations are analyzed 
        using certified data aligned against the strategic imperatives 
        detailed in the 20-year force structure plan;
  --The BRAC process is auditable and logical which enables the 
        Commission to conduct an independent review informed by its own 
        analysis and testimony from affected communities and elected 
        officials;
  --The Commission has the last say on the Department's 
        recommendations--being fully empowered to alter, reject, or add 
        recommendation;
  --The BRAC process has an ``All or None'' construct which prevents 
        the President and Congress from picking and choosing among the 
        Commission's recommendations; thereby insulating BRAC from 
        politics;
  --The BRAC process imposes a legal obligation on the Department to 
        close and realign installations as recommended by the 
        Commission by a date certain that facilitates economic reuse 
        planning by impacted communities and grants the Department the 
        authorities needed to satisfy that legal obligation.

    In recognition of your concerns about cost and the amount of time 
the BRAC Commission has to review our recommendations, the Department's 
request for BRAC authorization includes four key changes from prior 
year submissions as well as a handful of administrative and timeline 
changes. Each of the changes are narrowly tailored to address 
congressional cost concerns while not altering the fundamental 
principles of the BRAC process: treating all bases equally; all or none 
review by both the President and Congress; review by an independent 
Commission; making military value the priority consideration; and a 
clear legal obligation to implement all of the recommendations in a 
time certain together with all the authorities needed to accomplish 
implementation.
    To ensure the next BRAC round is focused on saving money and 
maximizing efficiency, our legislation adds a requirement for the 
Secretary of Defense to certify that the BRAC round will have the 
primary objective of eliminating excess infrastructure to maximize 
efficiency and reduce cost. Like the existing requirement to certify 
the need for a BRAC round, this certification occurs at the outset of 
the BRAC process and is a precondition to moving forward with 
development of recommendations. Additionally, subject to the 
requirement to give priority consideration to the military value 
selection criteria, the legislation now requires the Secretary to 
emphasize those recommendations that yield net savings within 5 years 
of completing the recommendation and limits the Secretary's ability to 
make recommendations that do not yield savings within 20 years. In 
order to make a recommendation that does not yield savings within 20 
years, the Secretary must expressly determine that the military value 
of such recommendation supports or enhances a critical national 
security interest of the United States.
    Finally, the legislation also now specifically delineates those 
costs that must be considered when determining the costs associated 
with a recommendation. As revised, the legislation specifies that the 
Department must consider costs associated with military construction, 
information technology, termination of public-private contracts, 
guarantees, the costs of any other activity of the Department of 
Defense or any other Federal agency that may be required to assume 
responsibility for activities at the military installations, and such 
other factors as the Secretary determines as contributing to the cost 
of a closure or realignment. Previous versions of the legislation had 
only specifically mentioned the costs of any other activity of the 
Department of Defense or any other Federal agency that may be required 
to assume responsibility for activities at the military installations
    Our proposal extends the Commission review period to run from April 
15 to October 1 which adds 2 months to Commission review and requires 
that Commissioners be named by February 1 which enables the Commission 
to be up and running for ten weeks before our recommendations come to 
them. Our revision also requires the Chair of the Commission to certify 
that the Commission and its staff have the capacity to review the 
Department's recommendations.
    Heretofore, we've addressed every concern raised by Congress. We 
conducted the European Infrastructure Consolidation to address concerns 
that we need to look at overseas installations first; we programmed the 
costs and pledged the next round will reduce excess instead of the 2005 
round's more costly ``transformation'' focus in response to concerns 
that we could not afford BRAC; and we have demonstrated that excess 
capacity exists--Army and Air Force testified to 21 and 30 percent. 
We've updated our DOD-wide (parametric) analysis and will provide it to 
Congress soon; it indicates over 20 percent excess.
    We hope the Department's efforts will result in a real dialog with 
members of Congress regarding the need for and value of the BRAC 
process, ultimately resulting in authority for a 2019 BRAC round.
                 european infrastructure consolidation
    In response to our recent requests for BRAC authority, Congress 
made it clear that it wanted DOD to look at reducing our overseas 
infrastructure first--particularly in Europe. We did so by conducting 
the European Infrastructure Consolidation (EIC) analysis--the first 
holistic and joint review of our legacy infrastructure in Europe.
    To analyze our European infrastructure we used a process very 
similar to the proven U.S. BRAC process. We looked at capacity, 
requirements (including surge), military value, cost, and the 
diplomatic dynamics involved with each action. As we consolidate our 
footprint, the infrastructure remaining in place will continue to 
support our operational requirements and strategic commitments, but we 
will not need as many support personnel (military, civilian, and host 
nation employees) to do so.
    The 26 approved EIC actions will allow us to create long-term 
savings by eliminating excess infrastructure without reducing our 
operational capabilities. In other words, operationally we will 
continue to do everything we currently do but at a lower cost. After a 
one-time investment of approximately $800 million in Military 
Construction to implement 2 major base closures, 8 minor site closures, 
and 16 realignment actions, the Department will realize approximately 
$500 million in annual recurring savings.
    These actions will be executed over the next several years, but 
that does not mean that everything will remain static in Europe while 
these changes occur. There were consolidations made before EIC and 
there will undoubtedly be future basing actions--especially given the 
evolving security environment. However, our holistic review and the 
resultant actions allow us to redirect resources supporting unneeded 
infrastructure and apply them to higher priorities, thus strengthening 
our posture in Europe.
    Although we continually seek efficiencies as we manage 
installations worldwide, the Department does not conduct this degree of 
comprehensive analyses of its infrastructure on a regular basis. That's 
one of the reasons we have requested BRAC authority from Congress to do 
a review of our U.S. installations. In this fiscal environment it would 
be irresponsible of us not to look for such savings.

                     Rebalance to the Asia-Pacific

                rebasing of marines from okinawa to guam
    The movement of thousands of Marines from Okinawa (and elsewhere) 
to Guam is one of the most significant re-basing action in recent 
years. We appreciate Congress' support allowing us to move forward on 
this essential component of our rebalance to the Asia-Pacific region, 
resulting in a more geographically dispersed, operationally resilient, 
and politically sustainable posture in the area. As a U.S. territory, 
Guam offers strategic advantages and operational capabilities that are 
unique in the region. Presence in Guam is a force multiplier that 
contributes to a force posture that reassures allies and partners and 
deters aggression.
    Now that the very complex National Environmental Policy Act (NEPA) 
process (nearly 5 years of study) is complete, there is a clear path 
for construction to proceed in earnest. Utilities and site improvements 
($300 million funded by the GoJ) for the main cantonment area at 
Finegayan, and a live-fire training range ($125 million) at Andersen's 
Northwest Field will be the first projects under the new Record of 
Decision (ROD). Construction for the Marine Aviation Combat Element 
(ACE) at the North Ramp of Andersen proceeded earlier because it was 
covered under the original 2010 ROD; it remains on track.
    We understand Congress' concerns regarding both the cost and 
feasibility of the relocation and we are firmly committed to the 
principles of operational effectiveness and fiscal responsibility. We 
remain confident in the estimate of $8.7 billion for the program, which 
includes $3.1 billion provided by the Government of Japan (GoJ) ($1.152 
billion transferred to date). The Department is evaluating this program 
in advance of each year's budget submission to pursue efficiencies that 
have the potential to reduce overall cost. For example, the 
Department's decision to relocate housing to Andersen Air Force Base 
reduced the requirement for a water works project (at the main 
cantonment area) saving the Department approximately $50 million. 
Additionally, we continue to provide the necessary oversight, 
conducting quarterly Deputy Secretary led Guam Oversight Council 
meetings to address issues related to the program's implementation.
    The Marines, in conjunction with the Naval Facilities Engineering 
Command (NAVFAC), have an established program management organization 
for construction execution and oversight. NAVFAC is standing up an 
Officer in Charge of Construction office and anticipates it will be in 
place by the first quarter of 2017. The Marines continue with planning 
to meet operational requirements on the ground. This is the largest 
infrastructure program ($9 billion) that has been executed in many 
years, so it is prudent to have the necessary management structure in 
place to ensure success.
    The Economic Adjustment Committee Implementation Plan (EIP) 
(submitted to Congress in October 2015) was the last Congressional 
requirement restricting project execution on Guam. The Plan outlines 
the five ``outside the fence'' projects (listed in the table below) 
associated with the impacts of the build-up on Guam's civilian 
infrastructure. Last year's fiscal year 2016 NDAA provides 
authorization for moving forward with the water/wastewater projects--
but not for the cultural repository and the public health lab projects. 
Our fiscal year 2017 President's budget requests authority for these 
two projects and the balance of funding ($87 million).

                             TABLE 7: EAC PROJECTS SUPPORTING DON RECORD OF DECISION
----------------------------------------------------------------------------------------------------------------
                                                                         Previous Fiscal      Fiscal Year 2017
                 Project Title                    Project Total  ($   Year(s) Appropriated       Request  ($
                                                      Millions)            ($ Millions)           Millions)
----------------------------------------------------------------------------------------------------------------
Upgrade Wastewater Treatment Plan.............                  139                    71                    68
Refurbishment sewer line Andersen AF..........                   31                    31                     0
Repair/expansion Aquifer monitoring system....                    4                     4                     0
Public Health Laboratory......................                   32                    13                    19
Cultural Repository...........................                   12                    12                     0
                                               -----------------------------------------------------------------
      Total...................................                  218                   131                    87
----------------------------------------------------------------------------------------------------------------

    The cumulative impact of this stationing was carefully evaluated 
within the environmental analysis process and we determined that water/
wastewater, public health, and our obligation to care for artifacts 
uncovered in our construction need to be addressed. The associated 
projects total $218 million, which is a relatively small, but 
absolutely necessary, portion of this relocation.
    Failure to provide authorization for these projects increases the 
risk of litigation and project delay and will affect DOD's credibility 
with the Guam's populace. Our inability to meet commitments to the 
Government of Guam will also adversely affect our credibility with the 
Government and people of the Commonwealth of Northern Mariana Islands 
(CNMI) since they have similar concerns, as discussed below.
      commonwealth of northern mariana islands (cnmi) initiatives
    The Department continues to pursue two key military initiatives in 
CNMI--the CNMI Joint Military Training (CJMT) Complex (a U.S. Pacific 
Command (PACOM) initiative (led by USMC) to reduce joint training 
deficiencies in the Western Pacific); and an Air Force Divert and 
Exercise Field on Tinian.
    PACOM requires a Joint Military Training Complex in-theater to meet 
Department of Defense training requirements in the theater. The Complex 
will make a key contribution to the readiness of Marines relocating to 
Guam and provide bilateral and multilateral training opportunities with 
foreign allies and partners. The Department sought to design the CJMT 
complex on Tinian and Pagan in a manner that minimizes the impacts on 
the local communities and provides direct economic and other benefits 
while meeting PACOM and its Service Components' training requirements.
    The training complex includes a series of live-fire Range Training 
Areas, training courses, maneuver areas, and associated support 
facilities located in close proximity to each other. The total cost of 
the complex is $900 million with GoJ contributing $300 million. In 
April 2015, the Department of Navy (DON) released the draft 
Environmental Impact Statement (DEIS) for the proposed action with an 
original public comment period of 60 days (extended to 180 days to 
accommodate requests by the CNMI Governor to give him more time in 
light of Internet problems and damage from Typhoon Soudelor). In 
response to the over 28,000 comments received in October 2015 the DON 
announced its intent to prepare a Revised DEIS to more fully address 
potential impacts to water, coral, and other natural resources. The DON 
now estimates the ROD will be issued in the summer of 2018. This 
timeline still supports force flow to Guam in 2022.
    The Air Force needs to establish a divert capability for up to 12 
tankers if access to Andersen Air Force Base is unavailable. The Air 
Force proposes to construct facilities and infrastructure to support a 
combination of cargo, tanker, and similar aircraft and associated 
personnel not only for divert operations, but also to support periodic 
exercises and disaster relief activities. Efforts to establish this 
capability are on track for a Record of Decision in mid-April 2016. The 
Air Force is now pursuing a Tinian-only solution consistent with CNMI's 
desires.
 building and maintaining resilience in the face of a changing climate
    Resilience to climate change continues to be a priority for the 
Department. Both the 2010 and 2014 Quadrennial Defense Reviews (QDRs) 
discussed the impacts associated with a changing climate that present a 
threat to DOD's national security mission. We recognize these impacts 
and their potential threats represent one more risk that we must 
consider as we make decisions about our installations, infrastructure, 
weapons systems and, most of all, our people. We have always dealt with 
the risks associated with extreme weather events and its impacts on our 
operations and missions. Our challenge today is how to plan for changes 
in the environment we will be operating from and in.
    Even without knowing precisely how or when the climate will change, 
we know we must build resilience into our policies, programs, and 
operations in a thoughtful and cost effective way. In January 2016, we 
issued a DOD Directive on climate change adaptation and resilience that 
identifies roles and responsibilities across the Department for 
implementing these strategies over the next 10 years.
    Specifically, I am focusing on our installations and 
infrastructure. Sea level is rising and many coastal areas are 
subsiding or sinking. This impacts the operation and maintenance of our 
existing installations and infrastructure. As Arctic Sea ice melts and 
breaks apart, our early warning radar sites are being eroded away at a 
much greater rate than before. Drought and flooding, which ironically 
go together, threaten water resources for us and our surrounding 
communities and exacerbate wildfire issues across the country.
    The Military Services have conducted a screening level assessment 
of all DOD sites world-wide to identify where we are potentially 
vulnerable to extreme weather events and tidal anomalies today. The 
information gleaned from this initial look will help to focus reviews 
of installation footprints, and shape planning for current and future 
infrastructure.
    Given the projected increases in major storms, DOD continues its 
progress to ensure energy resilience for its military installations. We 
completed our power resilience review, and are now updating Department-
level instructions to include energy resilience requirements. These 
requirements will ensure that the Department has the ability to prepare 
for and recover from energy disruptions that impact mission assurance 
on its military installations.
    Our goal is to increase the Department's resilience to the impacts 
of climate change. To achieve this goal, we are integrating 
consideration and reduction of climate risks into our already 
established mission planning and execution.
                financial improvement & audit readiness
    In order to effectively manage its financial resources, the 
Department remains focused on improving financial record keeping and 
conducting an independent audit of DOD's financial books beginning in 
fiscal year 2017. This includes not only an audit of the Department's 
Statement of Budgetary Resources, but also validating the existence and 
completeness, rights and obligations, and financial valuation of 
slightly less than 562,000 facilities located at 513 installations 
world- wide. The results of a more accurate and reliable real property 
inventory will better inform our decisions and actions in addressing 
our real property management challenges.
    The Department has made significant progress towards the 
environmental liabilities associated with our cleanup program and 
disposal of equipment aspects of the financial audit. Last fall we 
issued clarifying policies through which we are refining the cost 
estimates associated with those liabilities; thereby giving the 
Department a better understanding of our future environmental costs and 
the ability to plan for any required remediation.
                mission compatibility evaluation process
    The Department appreciates the legislative changes made in fiscal 
year 2016 to section 358 of the Ike Skelton National Defense 
Authorization Act of Fiscal Year 2011. These changes significantly 
streamlined the Mission Compatibility Evaluation Process, and ensured 
that DOD's mission capabilities are protected from incompatible energy 
developments. As a result of congressional direction and our own 
efforts we are effectively evaluating the mission impact of utility-
scale energy projects, while being mindful of the need for a clean 
energy future. In 2015 the Department reviewed over 3,400 applications 
for energy projects that were forwarded by the Federal Aviation 
Administration. The DOD Siting Clearinghouse worked aggressively with 
the Military Departments, energy project developers, and relevant 
States to implement affordable and feasible mitigation solutions where 
DOD missions might have been adversely impacted. No project reviewed in 
2015 rose to the level of an unacceptable risk to the national security 
of the United States, which is the threshold established in Section 358 
of the fiscal year 2011 NDAA to object to a project. The Department is 
prepared for an increased number of renewable energy project 
developments as newly approved tax credits become available to 
developers.
                               conclusion
    Thank you for the opportunity to present the President's fiscal 
year 2017 budget request for DOD programs supporting installations, 
energy, and the environment. Our budget situation requires that we take 
risk in our facilities. No one is happy about that, but we are 
effectively managing within this budget constrained environment and we 
appreciate Congress' continued support for our enterprise and look 
forward to working with you as you consider the fiscal year 2017 budget 
request.

    Senator Kirk. Thank you.

                         Department of the Army

STATEMENT OF HON. KATHERINE HAMMACK, ASSISTANT 
            SECRETARY OF THE ARMY, INSTALLATIONS, 
            ENERGY, AND ENVIRONMENT
    Ms. Hammack. Good morning, Chairman Kirk, Ranking Member 
Tester, and distinguished members of the subcommittee. I am 
here to present the Army's fiscal year 2017 budget for 
Installations, Energy, and Environment.
    Chairman Kirk, to your comment on how this supports 
combatant commanders of the Army's military construction 
(MILCON) budget (of the Army's budget of about $1 billion), a 
little over 28 percent supports combatant commanders' 
requirements.
    And our budget is at historic lows. We haven't seen this 
low of a budget since 1993. It is an 18-percent reduction from 
last year's budget.
    To Pete Potochney's comments, we are struggling in an era 
with very low toplines, and the Army has decided to take 
strategic risk in funding installations, so that we can support 
soldier readiness.
    Twenty-three percent of our MILCON request goes to the 
National Guard. It is about $233 million. That is to support 
readiness centers as part of the total force strategy.
    The National Guard put together a readiness center 
transformation master plan, which identifies that there are 
critical facility shortfalls. Those are not only in the 
National Guard, but they are across the Army. Our budget 
addresses some of the shortfalls in the National Guard. It is a 
step toward achieving the objectives they identify.
    But the National Commission on the Future of the Army, a 
report that was issued in January, identifies that Congress and 
the administration should look for cost saving opportunities in 
areas such as energy savings and reduced inventory of military 
facilities.
    So with the planned reductions in the Army in force 
structure, we will have an excess of 21 percent. If the Army 
has to get smaller, our excesses will only increase.
    So therefore, I echo Mr. Potochney's request for a BRAC 
authorization. The Army estimates that it could save over $500 
million annually, and that is money that we could invest in 
training. That is money that we could invest in force structure 
to ensure that we can support this Nation the way we need to.
    Without a BRAC, we continue to spend scarce resources to 
maintain unneeded infrastructure or underutilized 
infrastructure. I believe this is an unacceptable result for 
the Army and a disservice to the American taxpayer, so I look 
forward to working with Congress to help shape a future BRAC 
round.
    We are focused on energy efficiency. We have seen a 
reduction in our energy consumption by over 22 percent in the 
last 10 years. We have a focus on renewable energy, and our 
renewable energy program is primarily funded with private-
sector capital where we are leveraging the private sector to 
install renewable energy systems on our bases at no cost to the 
Army, and we are going to see over $250 million savings in 
projects already identified.
    At the same time, we have over 12 million acres of land 
that have historic characteristics, and over 200 endangered 
species. That requires a little over $1 billion to ensure that 
we are meeting our environmental requirements, so that the Army 
can train and test the way that is needed.
    But the Army's top priority remains readiness. So this 
budget is focused on ensuring we can get as much readiness as 
possible out of limited dollars, but supporting the soldiers 
and trying to get them the quality of life that they require.
    Thank you for the opportunity to appear before you today 
and I look forward to your questions.
    [The statement follows:]
            Prepared Statement of Hon. Katherine G. Hammack
                              introduction
    Chairman Kirk, Ranking Member Tester, and members of the 
subcommittee: on behalf of the soldiers, families, and civilians of the 
United States Army, thank you for the opportunity to present the Army's 
fiscal year 2017 budget request for Installations, Energy, Environment, 
and Base Realignment and Closure.
    The U.S. Army's top priority continues to be readiness: the Army 
must be ready to shape the global security environment, defend our 
homeland, and win the Nation's wars. To meet these missions, the Army 
requires ready and resilient installations--our power projection 
platforms--to enable regional engagement and global responsiveness. Our 
fiscal year 2017 budget request reflects the Army's decision to take 
risk in our installation facilities and services to maximize available 
funding for operational readiness and modernization. The request 
focuses our limited resources on necessary and prudent investments in 
military construction, installation energy programs supporting 
operational activities, and environmental compliance.
    The Army recognizes that reduced funding of installations accounts 
will lead to the continued degradation of our facilities and 
infrastructure, and risks our long-term ability to adequately support 
Army forces and meet mission requirements. The Army is stretched thin 
at a time when we are facing a global security environment that is more 
uncertain than ever. Without increased funding in the outyears or the 
authority to close and realign our installations, these problems will 
only get worse--expending precious funds and putting the readiness and 
welfare of our soldiers at risk. It is therefore particularly critical 
that we maximize the efficient use of our resources at this time to 
meet mission requirements and ensure soldier readiness.
    The Army's fiscal year 2017 military construction appropriations 
request strikes a careful balance to meet these growing and changing 
demands. We look forward to working with Congress to ensure that our 
national security needs and priorities are met in the upcoming fiscal 
year and well into the future.
                making efficient use of army facilities
    To meet readiness requirements, the Army must maintain 
installations that make efficient and effective use of available 
facilities. Army installations should be sized and resourced to meet 
the needs of our current and future missions, both at home and 
overseas.
    Efficient use of our installations includes the closure of low 
military value installations and the divestment of excess facilities 
that burden Army budgets. Reducing the portfolio of Army facilities was 
among the recommendations of the National Commission on the Future of 
the Army (NCFA), established by Congress as part of the fiscal year 
2015 National Defense Authorization Act (NDAA). The NCFA's report, 
released in January 2016, states that ``Congress and the Administration 
should look for cost-saving opportunities in areas such as . . . a 
reduced inventory of military facilities.'' \1\ The report recommends 
that the Army pursue these and other efficiency initiatives to free up 
funds that could be used to meet warfighting needs and other high-
priority initiatives identified by the Commission.
---------------------------------------------------------------------------
    \1\ National Commission on the Future of the Army, ``Report to the 
President and Congress of the United States,'' 28 January 2016, p. 44: 
Recommendation 5.
---------------------------------------------------------------------------
    The Army has made every effort to be fiscally prudent in the 
maintenance of excess infrastructure. The Army has employed its current 
authority to minimize costs and maximize the use of existing 
facilities. We have identified and are working to reduce excess 
capacity overseas through the European Infrastructure Consolidation 
(EIC) initiative, in addition to implementing efficiency measures 
across the board. Nevertheless, the modest savings attained from these 
efforts cannot substitute for the significant savings that can be 
achieved through base realignments and closures. Without them, the Army 
is forced to make deep cuts at our highest military value installations 
because we continue spending scarce resources maintaining and operating 
lower military value installations.
    As the Army is planning to reduce its Active Component end strength 
to 450,000 by fiscal year 2018, we will have over 170 million square 
feet of facilities that are not fully utilized--an excess facility 
capacity averaging 21 percent. Depending on the facility type, the 
excess infrastructure ranges from 18 percent to 33 percent. At an 
annual cost of about $3 per square foot to maintain these facilities, 
the Army is incurring over $500 million a year in unnecessary 
expenditures. If fiscal year 2018-2021 budget caps remain, the Army 
will need to further reduce the number of soldiers, and our excess 
capacity will continue to increase.
    The Army cannot afford this status quo. Although Base Realignment 
and Closure (BRAC) forces difficult choices affecting the local 
communities surrounding our installations, they are already seeing 
fewer and fewer soldiers and families as force structure continues to 
decline. BRAC allows the Army to use a fair and non-partisan process to 
close a few lower military value locations and realign the remaining 
missions to help fill the excess capacity at our higher military value 
installations.
    Not authorizing BRAC is still a choice with real consequences. The 
lack of authorization for a BRAC results in our highest military value 
installations bearing the deepest impacts. This is an unacceptable 
result for the Army and a disservice to American taxpayers.
    Facilities needed to support readiness, training exercises, 
airfields, and other priorities are deteriorating, while resources are 
diverted to supporting installations that could be closed. The Army 
cannot carry excess infrastructure costing over half a billion dollars 
per year indefinitely. Half a billion dollars represents the annual 
personnel costs of about 5,000 soldiers, which is slightly less than 
the number assigned to a Stryker Brigade Combat Team. It represents 
five annual rotations at the Army's Combat Training Centers, which are 
the foundation of Army combat readiness.
    Until we get the BRAC authority to analyze what types of excess 
exist at individual installations and develop recommendations on how to 
best consolidate into the highest military value installations we have, 
we do not know which lower military value installations should be 
closed and/or realigned. However, we do know BRAC is a proven process 
producing significant reoccurring savings of roughly $2 billion per 
year for the Army, as validated by the Government Accountability Office 
(GAO). A future BRAC round has the capability to save the Army hundreds 
of millions of dollars per year. Once the up-front costs are paid, the 
intermediate and long-term savings from BRAC can fund any number of 
important Army warfighter initiatives, including force structure, 
additional CTC rotations, and modernizations.
    The BRAC process is a proven, cost-effective means for reducing 
costly excess infrastructure, while ensuring a continued focus on 
efficiency and consolidation. The Army strongly supports DOD's request 
for a BRAC round, and urges Congress to enact legislation in fiscal 
year 2017 authorizing the Department to begin the process.
                     preserving ready installations
    Army installations--where soldiers live, work, and train--are where 
Army readiness is built to meet future challenges and ensure the 
security of our Nation. Increasing global threats generate installation 
requirements for force protection, cyber security, and energy security. 
Installation budgets provide the premier all-volunteer Army with 
facilities that support readiness and quality of life for our soldiers, 
families, and civilians.
    The Army continues to focus its limited resources on supporting 
readiness initiatives and replacing failed facilities. As we remain 
under pressure from current law budget caps, our installation services 
must continually be adjusted. Increases in deferred maintenance and 
reduced investments in installations and infrastructure ultimately 
increase our growing backlog of failing facilities. This degrades the 
Army's ability to be ready to project full spectrum forces over time. 
Excess facility capacity burdens the Army sustainment and base 
operations--consuming limited dollars that need to be better invested 
elsewhere.
    Sustainment, Restoration, and Modernization (SRM) accounts fund 
investments to maintain and improve the condition of our facilities. 
Periodic restoration and modernization of facility components are 
necessary to ensure the safety of our soldiers and civilians. Efforts 
are focused on preventing the degradation of our facilities and 
optimizing the use of Army investments, to prevent small maintenance 
issues from turning into large and expensive problems.
    The fiscal year 2017 $3.1 billion budget request will help support 
our sustainment and restoration requirements. However, the Army is 
assuming risk in installation readiness to preserve operational 
readiness. The $2.7 billion request for Sustainment meets 71 percent of 
our Facility Sustainment Model for long-term sustainment, whereas DOD 
recommended meeting an 80 percent threshold to stem the tide of further 
facility degradation.
    Reduced funding in the outyears for installation readiness 
adversely impacts facility condition and ultimately increases future 
military construction and restoration and modernization requirements. 
This shifts the Army's investment focus to the worst facilities, 
diverting resources needed to preserve our newest and best 
infrastructure. Deferred sustainment over the long term can lead to 
higher life-cycle repair costs and component failure, significantly 
reducing facility life expectancy.
    Responsibly managing over 12 million acres of real property also 
means that the Army must maintain extensive base operations. Through 
funding for Base Operations Support (BOS) accounts, Army installations 
provide services similar to those associated with a municipality: 
public works, security protection, logistics, environment, and Family 
programs. These programs and services enable soldiers, civilians, and 
families to live and work on 154 Army installations worldwide.
    Balancing BOS needs in a changing global environment calls for 
continued due diligence. The President's fiscal year 2017 budget 
therefore requests a total of $9.43 billion for BOS accounts, including 
$7.82 billion for the Active Component; $1.04 billion for Army National 
Guard; and $573.8 million for Army Reserve.
                 investing in essential infrastructure
    The Army's request for Military Construction provides secure and 
sustainable facilities and infrastructure critical to supporting the 
Combatant Commander's top priorities, enabling Army missions, and 
maintaining soldier and unit readiness. For fiscal year 2017, the Army 
requests just over $1 billion for Military Construction, a reduction of 
$229 million--18 percent--from fiscal year 2016 appropriations. The 
budget allocates $503 million (approximately 50 percent) for the Active 
Component; $233 million (23 percent) for the Army National Guard; $68 
million (7 percent) for Army Reserves; and $201 million (20 percent) 
for Army Family Housing Construction.
    The Army continuously reviews project scope and costs. We must 
continue to adapt to evolving missions, account for emerging 
organizational changes, and meet unit readiness needs, while 
simultaneously seeking efficiencies at every opportunity. However, 
funding for Army Military Construction has reached historically low 
levels. This reduces the Army's ability to recapitalize inadequate and 
failed facilities into infrastructure that supports operations, 
readiness, and the welfare of the all-volunteer force.
    The Army National Guard (ARNG) is the oldest component of the U.S. 
Armed Forces. The Guard has courageously participated in every war and 
every conflict this Nation has ever fought, including Iraq and 
Afghanistan, and is our first line of defense in responding to domestic 
emergencies. These men and women perform an important mission for our 
country, and our military construction budget endeavors to ensure that 
the needs of their facilities are met.
    The Guard's fiscal year 2017 Military Construction request is 
$232.9 million. This includes $161.3 million to support seven Readiness 
Centers, $50.9 million to construct three maintenance facilities, $12 
million to fund minor projects, and $8.7 million for planning and 
design. Our ARNG budget request is focused on recapitalizing readiness 
centers--the heart and soul of the National Guard--as well as 
maintenance facilities, training areas, ranges, and barracks to allow 
the Guard to be ready to perform State and Federal missions. These 
projects will address space constraints and focus on replacing failing 
facilities.
    In the 2014 ARNG Readiness Center (RC) Transformation Master Plan, 
a key finding was that the RC portfolio is experiencing ``critical 
facility shortfalls.'' This budget request is a small step toward 
addressing the ARNG's challenges.
    The fiscal year 2017 budget request for the Army Reserve totals 
$68.2 million, with four critical projects totaling $57.9 million. 
Three of these will focus on replacing some of our most dilapidated and 
failing facilities on Army Reserve installations that are in the most 
dire need. This includes $21.5 million to replace an Emergency Services 
Center at Fort Hunter Liggett, California--currently in failing 
condition--which will provide life-saving police, fire, crash and 
rescue, and Emergency Medical Team (EMT) services. An additional $10.3 
million will support planning and design of future year projects, as 
well as to address unforeseen critical needs through the Unspecified 
Minor Military Construction account.
    The Army Family Housing budget allows us to provide homes and 
services to the soldiers and their families living on our installations 
around the world. For fiscal year 2017, the Army requests $200.7 
million for family housing construction. This will fund two projects in 
Korea, at Camp Humphreys and Camp Walker, critical to supporting 
consolidation and quality of life for our soldiers and their families. 
The projects are necessary to eliminate dilapidated family housing 
units and meet the U.S. Forces Korea (USFK) Commander's requirements 
for housing. An additional $326 million is requested to help sustain 
all family housing operations, cover utility costs, ensure proper 
maintenance and repair of Government family housing units, lease 
properties where advantageous, and provide privatization oversight and 
risk mitigation.
                        ensuring energy security
    It is operationally necessary, fiscally prudent, and mission 
essential that the Army have assured access to the energy required to 
achieve our primary objectives for the United States. The Army has led 
the way toward increasing energy efficiency on our installations, 
harnessing new energy technologies to lessen soldier battery loads, and 
improving our operational capabilities to reduce the need for fuel 
convoys. Our installation energy budget request is focused on enhancing 
mission effectiveness, and is supported by strong business case 
analyses. For fiscal year 2017, the Army is requesting $1.716 billion 
to pay utility bills on our installations, leverage private sector 
investment in renewable energy projects, and invest in discrete energy 
efficiency improvements.
    In response to risks posed to our vulnerable energy grid, the Army 
is improving the ``resiliency'' of its installations through the use of 
on-base renewable sources of energy. A resilient Army installation is 
one that can withstand threats to its security--be they power 
interruptions, cyber-attacks, or natural disasters--and endure these 
hazards to continue its own operations and those of the local 
community. With this in mind, the Army conducted a test and temporarily 
disconnected Fort Drum, New York from the energy distribution network 
this past November, validating the installation's ability to operate 
independently from the wider grid.
    The Army leads the Federal Government in the use of Energy Savings 
Performance Contracts (ESPCs) and Utility Energy Service Contracts 
(UESCs), which allow private companies and servicers to provide the 
initial capital investment needed to execute projects using repayments 
from Utilities Services Program savings. The amount of energy saved by 
Army ESPC and UESC projects awarded between fiscal year 2010 and fiscal 
year 2015 is equal to the amount of energy consumed by Fort Bragg--one 
of the Army's largest and most populous installations--in a year. In 
total, the Army has reduced its facilities energy consumption by 22.6 
percent since fiscal year 2003, while also leading the Federal 
Government in reductions of its potable water intensity use and non-
tactical vehicle (NTV) fossil fuel use.
    In addition, our energy program account funds the Office of Energy 
Initiatives (OEI), which helps to plan and develop third party-financed 
renewable energy projects. OEI currently has 14 projects completed, 
under construction, or in the final stages of the procurement process--
together providing an incredible 350 megawatts (MW) of generation 
capacity. These projects represent over $800 million in private sector 
investment, saving funds that would otherwise be appropriated for 
military construction. Further, all of these projects provide 
electricity that is at or below the cost of conventional power.
    The Army's operational energy initiatives provide extended range 
and endurance, increased flexibility, improved resilience, and force 
protection, all while enhancing mobility and freedom of action for our 
soldiers. Operational energy investment in science and technology has 
been a proven force multiplier, providing our soldiers with a distinct 
advantage on the battlefield. Therefore, the bulk of our operational 
energy budget request, $1.28 billion, is for investments in energy 
efficient equipment by the Army acquisition community that will reduce 
physical and logistical burdens on our soldiers and, most importantly, 
help save lives.
    The Army's energy program has proven results--reducing our reliance 
on the grid, improving energy security and efficiency, and contributing 
to mission readiness--all at a minimal impact to Army budgets. Energy 
performance on our installations is a testament to the Army's success 
in leveraging its limited resources to achieve considerable results. We 
urge Congress to continue to support the Army's energy initiatives both 
in operational and installation environments.
                      safeguarding our environment
    The mission of the Army's environmental program is three-fold: (1) 
to comply with environmental laws and regulations and ensure proper 
stewardship of our natural, cultural, and Tribal resources; (2) to meet 
DOD's goals for installation restoration and munitions response; and 
(3) to invest in environmental technology research, development, 
testing, and evaluation.
    The Army manages over 12 million acres of land, which requires the 
Army to protect endangered species and historic sites or structures. 
Efforts are made to remediate environmental contaminants that pose a 
danger to human health or the environment, while supporting Army 
operations and our soldiers, families, and communities. Our fiscal year 
2017 budget request of $1.05 billion will allow the Army to fulfill 
these objectives, keeping the Army on track to meet our cleanup goals 
and maintain full access to important training and testing lands, which 
are integral components of Army readiness.
                               conclusion
    Readiness is the U.S. Army's top priority--there is no other 
``number one.'' The Army's fiscal year 2017 Military Construction 
budget request takes moderate risk to ensure our readiness needs are 
met by focusing our financial resources where they are needed most.
    Maintaining failing facilities and low-military value installations 
takes money away from critical investments in the readiness of our 
soldiers and the acquisition of advanced weapons and technology. BRAC 
allows the Army to optimize installation capacity and achieve 
substantial savings, freeing up scarce resources that could easily be 
applied elsewhere.
    The strength of the U.S. Army is its people, and our installations 
serve as the platforms for this strength. Without ready and resilient 
installations, our soldiers will be ill-equipped to fight the growing 
threats facing our Nation. We owe it to our men and women who wear the 
Army uniform to be prudent in the use of our installation budgets and 
prioritize them appropriately to ensure they have the best resources 
available to defend our homeland.
    Thank you for the opportunity to present this testimony and for 
your continued support of our soldiers, families, and civilians.

    Senator Kirk. Thank you.

                         Department of the Navy

STATEMENT OF STEVEN R. ISELIN, PRINCIPAL DEPUTY 
            ASSISTANT SECRETARY OF THE NAVY, ENERGY, 
            INSTALLATIONS, AND ENVIRONMENT
    Mr. Iselin. Good morning, Chairman Kirk, Ranking Member 
Tester, members of the subcommittee. I am Steve Iselin. I am 
the Principal Deputy for Energy, Installations, and Environment 
for the Department of the Navy and I am pleased to provide this 
overview of our energy infrastructure and environmental 
programs.
    Navy and Marine Corps installations and facilities are 
platforms for preparing marines and sailors; for deploying 
ships, aircraft, and operational forces to meet their mission 
requirements; and for supporting military families.
    The President's fiscal year 2017 budget requests $11.9 
billion to operate, maintain, and recapitalize these 
installation platforms. That is about 10 percent less than the 
fiscal year 2016 levels.
    The Department, including the senior leaders of the 
Department, realize this funding level impacts long-term 
ownership costs and is mindful that continued funding at these 
levels will cause degradation and future operational impacts.
    Importantly, though, over the last few years, the 
Department has significantly improved its condition assessment 
process and its risk-based strategy to ensure the money we do 
get supports the most critical projects.
    The following are a few specifics from this year's request.
    The request includes $1.1 billion for military construction 
to support warfighting requirements and to modernize some 
utility and critical infrastructure. It is a 35-percent 
reduction from fiscal 2016 levels. And separately, the 
Department provided an unfunded priority list that includes 
other priority military construction projects that were 
unaffordable within the available budget authority.
    The request includes $1.9 billion for facility sustainment, 
restoration, and modernization, also a decrease from last 
year's levels. This funds Navy sustainment at 70 percent and 
Marine Corps sustainment at 74 percent of the Department of 
Defense (DoD) sustainment model.
    We are continuing to carefully accept risk and recognize 
that continued funding below these amounts will also cause our 
portfolio to deteriorate. The unfunded priority list also 
includes additional sustainment and restoration funding this 
year.
    The budget requests $7.6 billion for base operation 
support. That is about the same level as last year. And both 
the Navy and Marine Corps consciously invest at a level 
necessary to meet minimum acceptable standards in how we 
operate and maintain our facilities.
    The request includes $1 billion to meet environmental 
program statutory and stewardship responsibilities. We take our 
environmental stewardship responsibilities seriously and are 
really proud of our record in environmental planning, 
compliance, and cleanup, and in our efforts to be good stewards 
of cultural, natural, and historic resources.
    The Navy and Marine Corps energy programs have two central 
goals, first, enhancing combat capabilities, and second, 
advancing energy security. Like the other services, we have 
partnered with other government agencies, academia, and, 
importantly, the private sector, and we are achieving these 
goals with the same spirit of innovation that has marked our 
naval history.
    I must also say that I am very proud of the many dedicated 
professionals who over the last 5 years have persevered despite 
furloughs, pay and hiring freezes, limited awards and rewards, 
reduced budgets, and restrictions on travel and training. They 
have and will continue to effectively manage our Navy and 
Marine Corps installations, despite the challenges and 
constraints.
    In conclusion, this year's budget request makes the 
required investments to support current readiness while 
accepting known risks in the sustainment and modernization 
accounts. I appreciate the opportunity to testify today. I look 
forward to your questions.
    [The statement follows:]
                 Prepared Statement of Steven R. Iselin
    Chairman Kirk, Ranking Member Tester, and members of the 
subcommittee, I am pleased to appear before you today to provide an 
overview of the Department of the Navy's (DON) investment in its 
infrastructure, energy, and environment programs.
    Our Navy and Marine Corps installations and facilities are the 
platform to train and prepare our marines and sailors, to deploy ships, 
aircraft and operational forces, as well as to support our military 
families. We are stewards of a large portfolio of installations--valued 
at $229 billion ($173 billion Navy and $56 billion USMC, respectively) 
in plant replacement value--that is vital to our operational forces. 
Against the backdrop of world events and competing requirements and 
resources, we must balance our desired level of funding with the 
principal purposes for our existence: to optimize readiness of the 
operational forces and preserve their quality of life. Readiness-
enablers include runways, piers, operations & maintenance facilities, 
communications & training facilities, and utilities; those that enable 
quality of life include barracks, mess halls, and recreation and 
fitness centers. We have a responsibility to balance the investments 
for this portfolio according to current year authorizations while being 
mindful of the impacts to life cycle and ever-evolving mission 
requirements.
                    investing in our infrastructure
    We thank Congress for passage of the Bipartisan Budget Act (BBA) of 
2015, the National Defense Authorization Act (NDAA) for fiscal year 
2016 and the Consolidated Appropriations Act, 2016. Although the BBA of 
2013 provided some budget stability for fiscal year 2014-2015, and 
limited relief from the Budget Control Act (BCA) of 2011 sequestration 
levels, the unfortunate consequence of constrained DON funding levels 
and timing is that many of our installations' piers, runways, and other 
facilities are degrading. We continue to make progress in replacing and 
demolishing unsatisfactory infrastructure, yet still have challenges 
based on BCA caps and on the prospect of a return to sequestration 
levels in fiscal year 2018.
    In fiscal year 2017, the President's budget (PB) is requesting 
$11.9 billion in various appropriations, a 10.4 percent decrease ($1.4 
billion) from amounts appropriated in fiscal year 2016 to operate, 
maintain and recapitalize our shore infrastructure. Figure 1 compares 
the fiscal year 2016 enacted budget and the fiscal year 2017 PB request 
by appropriation. Each appropriation is discussed more fully in the 
following sections.

                              FIGURE 1: DON INFRASTRUCTURE FUNDING BY APPROPRIATION
----------------------------------------------------------------------------------------------------------------
                                                             Fiscal year  President's
                                                                 2016     budget 2017    Delta ($
                       Appropriation                          enacted ($       ($        millions)    Delta (%)
                                                              millions)    millions)
----------------------------------------------------------------------------------------------------------------
Military Construction, Active and Reserve..................        1,739        1,126         -613         -35.3
Family Housing, Construction...............................           17           94           77         452.9
Family Housing, Operations.................................          353          301          -52         -14.7
BRAC.......................................................          170          154          -16          -9.4
Sustainment, Restoration and Modernization.................        3,110        2,356         -754         -24.2
Base Operating Support.....................................        7,625        7,610          -15          -0.2
Environmental Restoration, Navy............................          300          282          -18          -6.0
                                                            ----------------------------------------------------
      Total................................................       13,314       11,923       (1,391)        -10.4
----------------------------------------------------------------------------------------------------------------
Notes:
  MILCON, SRM and BOS include OCO
  BOS includes BSIT

    We strive to maintain a shore infrastructure that is mission-ready, 
resilient, sustainable and aligned with Fleet and operational 
priorities. Toward that end, and especially important given the risks 
inherent at these funding levels, Navy and Marine Corps have taken 
actions to more proactively manage the installations portfolio. For 
example, Navy has taken the initiative to:

  --Standardize the facility inspection and Facility Condition Index 
        (FCI) process that quantifies facility condition and documents 
        the needed maintenance and repair work within our facilities 
        portfolio. This information helps guide spending of available 
        dollars.
  --Incorporate principles of condition-based maintenance across all 
        buildings, utilities and structures, in order to prioritize 
        work on only the most critical components (e.g. roofs and 
        exterior walls) at our most critical facilities or on 
        components that relate to life, health and safety. We are able 
        to focus resources on specific building components and systems 
        where failure jeopardizes personnel safety or a warfighting 
        mission.
  --Led by Commander, Navy Installations Command, exercise a single 
        integrated forum to receive and adjudicate demand signals from 
        Fleet and Enterprise Commanders to identify and prioritize 
        projects, optimizing the available resources.
  --Maintain focus on reducing footprint by demolishing or divesting 
        unneeded buildings as funds are available, and recapitalizing 
        existing facilities in lieu of new construction when possible.
  --Supplement available appropriated dollars by the increased use of 
        authorities that leverage third party financing for improving 
        infrastructure while lowering energy consumption and energy 
        costs.
                     military construction (milcon)
    Navy's MILCON program funds infrastructure at home and abroad, 
supports our warfighters, and meets the objectives in CNO's Design for 
Maintaining Maritime Superiority and the Secretary of Defense's 
Strategic Guidance. Together, Navy and Marine Corps will invest $1.13 
billion worldwide in military construction funds to support warfighting 
and modernization of our utilities and critical infrastructure.
    For Navy, the fiscal year 2017 request is for 25 projects, Planning 
and Design and Unspecified Minor Construction, at a budget of $700 
million, which is 29 percent lower than the fiscal year 2016 as-enacted 
budget of $986 million. Navy has invested an average of $1 billion 
annually in MILCON since 2010, and the fiscal year 2017 request is the 
lowest since 1999. Navy continues to invest prudently in MILCON, but 
assumes long-term risk in deferring recapitalization of our existing 
infrastructure.
    The Navy's fiscal year 2017 MILCON request supports Combatant 
Commander requirements, enables new platforms/missions, upgrades 
utilities and energy infrastructure, recapitalizes Naval Shipyard 
facilities, and supports weapons of mass destruction (WMD) training 
requirements. They include:

Combatant Commander Support ($233 million, 9 projects):
    Medical/Dental Facility--Camp Lemonnier Djibouti
    Harden POL Infrastructure--NAVBASE Guam
    Coastal Campus Utilities Infrastructure--NAVBASE Coronado
    Coastal Campus Entry Control Point--NAVBASE Coronado
    Communication Station--NAVSTA Rota
    Grace Hopper Data Center Power Upgrades--NAVBASE Coronado
    Missile Magazine--NAVWPNSTA Seal Beach
    P-8A Hanger Upgrade--NSA Naples (Keflavik, Iceland)
    P-8A Aircraft Rinse Rack--NSA Naples (Keflavik, Iceland)

New Platform/Mission ($198 million, 6 projects):
    UCLASS RDT&E Hangar--Naval Air Station PAX River
    Triton Mission Control Facility--NAS Whidbey Island
    Triton Forward Operating Base Hangar--VARLOCS
    EA-18G Maintenance Hangar--NAS Whidbey Island
    F-35C Engine Repair Facility--NAS Lemoore
    Air Wing Simulator Facility--NAS Fallon

Utilities and Energy Infrastructure ($85 million, 4 projects):
    Upgrade Power Plant & Electrical Distribution System--PMRF Barking 
            Sands
    Energy Security Microgrid--Naval Base San Diego
    Service Pier Electrical Upgrades--Naval Base Kitsap
    Shore Power (Juliet Pier)--COMFLEACT Sasebo

Naval Shipyards ($76 million, 4 projects):
    Sub Refit Maintenance Support Facility--Naval Base Kitsap
    Nuclear Repair Facility--Naval Base Kitsap
    Utilities for Nuclear Facilities--Portsmouth Navy Shipyard (New 
            Hampshire)
    Unaccompanied Housing Consolidation--Naval Shipyard Portsmouth (New 
            Hampshire)

WMD Training ($21 million, 1 project):
    Applied Instruction Facility--NAS Whiting Field, Milton, Florida

MILCON Reserves ($11 million, 1 project):
    Joint Reserve Intelligence Center--NAS JRB New Orleans

    For the Marine Corps, the fiscal year 2017 request is for 11 
projects, Planning and Design and Unspecified Minor Construction, at a 
budget of $426 million, which is 44 percent lower than the fiscal year 
2016 as enacted budget of $754 million. Investments in MILCON will 
primarily support new warfighting platforms, weapons support, force 
relocation facilities (Rebalance to the Pacific, Aviation Plan), 
improve security and safety posture, and recapitalize and replace 
inadequate facilities. The 11 projects in the Marine Corps fiscal year 
2017 MILCON budget include:

New Platform and Weapons Support Facilities ($110 million, 2 projects):
    F-35 aircraft maintenance hangar at MCAS Beaufort, South Carolina; 
            and
    F-35 aircraft maintenance shops at Kadena Air Base, Japan.

Facilities to Support Force Relocations/Increased Force Requirements 
($119 million, 3 projects):
    Aircraft maintenance hangar for VMX-22-MCAS Yuma;
    Expansion of Reserve Center Annex--Galveston; and
    Utility upgrades for Finegayan cantonment area--Guam.

Safety, Security, and Environmental Compliance ($31 million, 2 
projects):
    EPA-required central heating plant conversion--MCAS Cherry Point; 
            and
    Range safety improvements at MCB Camp Lejeune.

Recapitalize and Replace Inadequate Facilities ($117 million, 4 
projects):
    Replace and consolidate communications, electrical, and maintenance 
            shops--MCB Hawaii;
    Replace unreliable electrical power supply at reserve center--
            Brooklyn, New York;
    Replace reserve training facilities--Syracuse, New York; and
    Modernize recruit barracks and construct a recruit reconditioning 
            center for injured recruits at MCRD Parris Island.

    Reduced funding availability in MILCON will result in reduced 
investments in projects that support the consolidation of functions or 
replacement of existing facilities, which will cause degradation of the 
long-term health of existing facilities.
    Relocation of marines to Guam remains an essential part of the 
United States' larger Asia-Pacific strategy of achieving a more 
geographically distributed, operationally resilient and politically 
sustainable force posture in the region. Guam provides a critically 
important forward base for our expeditionary Marine ground and air 
forces and also provides key sustainment capabilities for our forward-
deployed ships and submarines. The permanent basing of marines in Guam 
significantly contributes to maintaining regional stability and 
provides reassurance for key allies and partners across the Pacific 
region.
                             family housing
    The Department continues to rely on the private sector as the 
primary source of housing for sailors, marines, and their families. 
When suitable, affordable, private housing is not available in the 
local community, the Department relies on government- owned, 
privatized, or leased housing. The fiscal year 2017 request of $395 
million supports Navy and Marine Corps family housing operation, 
maintenance, renovation, and construction requirements. Of this amount, 
$79 million is for the first phase of replacement of inadequate family 
housing at Naval Support Activity Andersen, Guam and $11 million is for 
the renovation of family housing at Marine Corps Air Station Iwakuni, 
Japan. The budget request also includes $301 million for the daily 
operation, maintenance, and utilities expenses of the military family 
housing inventory.
    To date, over 62,000 Navy and Marine Corps family housing units 
have been privatized through the Military Housing Privatization 
Initiative (MHPI). MHPI has enabled the Department to leveraged private 
sector resources to improve living conditions for sailors, marines, and 
their families.
      facilities sustainment, restoration and modernization (fsrm)
    To maximize support for warfighting readiness and capabilities, the 
President's fiscal year 2017 budget request continues to carefully 
accept risk in FSRM.
    The fiscal year 2017 budget requests $1.9 billion to sustain 
infrastructure, a 16 percent reduction from the fiscal year 2016 
enacted value of $2.3 billion. Navy and the Marine Corps have resourced 
fiscal year 2017 facilities sustainment at 70 percent and 74 percent, 
respectively, of the Department of Defense (DOD) Facilities Sustainment 
Model. Over time, this lack of sustainment will cause our facilities to 
deteriorate.
    To restore and modernize our existing infrastructure, the the 
fiscal year 2017 budget request is $463 million, a 38 percent reduction 
from the fiscal year 2016 enacted value of $749 million. Budget 
constraints have compelled the Department to focus its limited 
resources to address life/safety issues and the most urgent 
deficiencies at our mission-critical facilities, piers, hangars, 
runways and utility systems. We are committed to fully funding 
infrastructure at strategic weapons facilities, accelerating Naval 
shipyard infrastructure improvements, supporting the Marine Corps 
Aviation Plan, and force relocations. However, as the Department defers 
less critical repairs, especially for facilities not directly tied to 
DON's warfighting mission, certain facilities degrade and the overall 
facilities maintenance backlog increases. At current funding levels, 
the overall condition of DON infrastructure will slowly, but steadily, 
erode over the Future Years Defense Plan (FYDP). Although we are 
proactively managing the risk we are taking in our shore 
infrastructure, we acknowledge that this risk must eventually be 
addressed.
                      base operating support (bos)
    The fiscal year 2017 BOS request of $7.6 billion is essentially the 
same as fiscal year 2016 levels. Similar to the risk taken in our 
facility investments, the Department is accepting lower standards in 
base operating support at our installations. Base operations at Navy 
and Marine Corps installations are funded to the minimum acceptable 
standards necessary to continue mission-essential services. We have 
enforced low service levels for most installation functions 
(administrative support, base vehicles, grounds maintenance, janitorial 
and facility planning) in order to maintain our commitment to 
warfighting operations, security, family support programs, and child 
development. These measures, while not ideal, are absolutely necessary 
in the current fiscal environment.
                             safety program
    Our initiatives are improving the skills of our Safety 
Professionals directly benefiting over 800,000 personnel (uniformed 
personnel (Active and Reserve) and civilian) executing diverse, complex 
missions across the globe. DON's safety program has expanded its global 
online training resources to ensure the Naval Safety workforce is 
educated and trained through more effective and modernized cost 
efficient methods. We are acquiring commercial off-the-shelf 
information technology tools to enhance our tireless fight to reach our 
objective of zero mishaps. The Risk Management Information initiative 
will comprise a streamlined mishap reporting system, data base 
consolidation, state-of-the-art analytical innovations, and data 
capabilities to improve our predictive abilities for safer sailors and 
marines.
                         managing our footprint
Base Realignment and Closure (BRAC)
    We appreciate the congressional support for additional fiscal year 
2016 funds for environmental cleanup at BRAC properties. For fiscal 
year 2017, the Department has planned to expend $154 million to 
continue cleanup efforts, caretaker operations, and property disposal. 
By the end of fiscal year 2015, we disposed of 94 percent (178,180 
acres) of our excess property identified in previous BRAC rounds 
through a variety of conveyance mechanisms. Of the remaining 6 percent 
(11,674 acres), the majority is impacted by complex environmental 
issues. Of the original 131 installations with excess property, Navy 
only has 17 installations remaining with property to dispose.
    Although many tough cleanup and disposal challenges remain from 
prior BRAC rounds, we have fostered good working relationships with 
regulatory agencies and local communities to tackle these complex 
issues and provide creative solutions to support redevelopment 
priorities.
Compatible Land Use
    DON has an aggressive program to promote compatible land use 
adjacent to our installations and ranges. This program helps Navy and 
Marine Corps to operate and train in cooperation with surrounding 
communities, while protecting important natural habitats and species. 
We conduct Air Installation Compatible Use Zone Studies and Range Area 
Compatible Use Zone Studies, and provide them to nearby communities for 
their consideration in the exercise of their land management 
responsibilities.
    A key element of the program is Encroachment Partnering, which 
involves cost- sharing partnerships with States, local governments, and 
conservation organizations to acquire interests in real property 
proximate to our installations and ranges. The Department is grateful 
to Congress for providing funds for the DOD Readiness and Environmental 
Protection Integration (REPI) Program. Since 2005, DON has acquired 
restrictive easements on approximately 91,000 acres.
                       protecting our environment
    The Department is committed to environmental compliance, 
stewardship and responsible fiscal management that support mission 
readiness and sustainability, investing over $1 billion across all 
appropriations to achieve our statutory and stewardship goals. The 
funding request for fiscal year 2017 is about 2.3 percent less than 
enacted in fiscal year 2016, as shown in Figure 2:

                                 FIGURE 2: DON ENVIRONMENTAL FUNDING BY PROGRAM
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year  President's
                                                                  2016     budget 2017    Delta ($
                          Category                             enacted ($       ($       millions)    Delta (%)
                                                               millions)    millions)
----------------------------------------------------------------------------------------------------------------
Conservation................................................           86           93            7          8.1
Pollution Prevention........................................           22           19           -3        -13.6
Compliance..................................................          480          485            5          1.0
Technology..................................................           36           37            1          2.8
Active Base Cleanup (ER,N)..................................          300          282          -18         -6.0
BRAC Environmental..........................................          158          141          -17        -10.8
                                                             ---------------------------------------------------
      TOTAL.................................................        1,082        1,057          -25         -2.3
----------------------------------------------------------------------------------------------------------------

    The Department continues to be a Federal leader in environmental 
management by focusing resources on achieving specific environmental 
goals, implementing efficiencies in our cleanup programs and regulatory 
processes, proactively managing emerging environmental issues, and 
integrating sound policies and lifecycle cost considerations into 
weapon systems acquisition to achieve cleaner, safer, more energy-
efficient and affordable warfighting capabilities without sacrificing 
operational capability.
    In fiscal year 2017 we will complete environmental planning for 
Navy's Records of Decision (RODs) for EA-18G Growler training at 
Whidbey Island, Washington. As an example of our land stewardship 
responsibilities, we will complete natural and cultural surveys to 
support Marine Corps air and ground training at Twentynine Palms, 
California. To maintain our environmentally responsible operations at 
sea, we will continue to be leaders in ocean research by studying 
marine mammal behavioral response to sound in water. We will also build 
on our accomplishments this past fiscal year, which included finalizing 
the environmental planning processes for the new Marine Corps Base on 
Guam; completing a 5 year authorization for testing and training in the 
Marianas Island Testing and Training area with National Marine 
Fisheries Service; and successfully rearing 500 hatchlings and 
releasing 35 mature tortoises with the University of California, Los 
Angeles (UCLA) at the Marine Corps Twentynine Palms Desert Tortoise 
Head Start Facility.
                     enhancing combat capabilities
    The Department of the Navy's Energy Program has two central goals: 
(1) enhancing Navy and Marine Corps combat capabilities, and (2) 
advancing energy security afloat and ashore. Partnering with other 
government agencies, academia and the private sector, we strive to meet 
these goals with the same spirit of innovation that has marked our 
history--new ideas delivering new capabilities in the face of new 
threats.
    Our naval forces offer us the capability to provide power and 
presence --to deter potential conflicts, to keep conflicts from 
escalating when they do happen, and to take the fight to our 
adversaries when necessary. Presence means being in the right place, 
not just at the right time, but all the time; and energy is key to 
achieving that objective. Using energy more efficiently allows us to go 
where we're needed, when we're needed, stay there longer, and deliver 
more firepower when necessary.
    Improving our efficiency and diversifying our energy sources also 
saves lives. During the height of operations in Afghanistan, we were 
losing one marine, killed or wounded, for every 50 convoys transporting 
fuel into theater. That is far too high a price to pay. Reducing demand 
at the tip of the spear through energy efficiency, behavior change and 
new technologies takes fuel trucks off the road.
    I'll mention just a couple of examples. The work that the Marine 
Corps is doing to integrate solar power and software into autonomous 
UAVs will allow them to take advantage of environmental conditions and 
provide persistent surveillance for periods far in excess of our 
current capabilities without refueling. They are also working on 
technologies that harvest kinetic and other forms of energy into an 
integrated power system capable of running a marine's radios and 
electronic gear. These are real combat capabilities that will result in 
increased lethality.
    Navy is pursuing similar combat capabilities. In 2016 we will begin 
installing hybrid electric drives in our destroyers, enabling our ships 
to remain on station longer during low speed missions and extend time 
between refueling. This is the same technology that is now onboard USS 
MAKIN ISLAND and USS AMERICA, allowing those ships to stay on station 
between refueling far longer than their predecessors.
Improving Energy Security and Resilience
    Reliable and affordable electricity at our installations is 
critical to mission effectiveness. Measures to reduce vulnerability and 
to increase resiliency of the electrical system improve and protect 
national security. The 2013 attack on key grid infrastructure in 
California is a reminder of how fragile the commercial system can be. 
The Department of the Navy recognizes this vulnerability and is working 
to enhance our energy security.
    Navy's Renewable Energy Program Office (REPO) has brought one 
gigawatt (GW) of renewable energy into procurement. We expect those 
renewable energy projects to yield hundreds of millions in projected 
utility cost savings and even more important energy security benefits. 
For example, last August we celebrated the procurement of 210 megawatts 
(MW) of solar generation for 14 installations in California, with a 
projected cost savings of $90 million over a 25-year term. At Naval 
Submarine Base Kings Bay, Georgia Power Company is constructing a 42 MW 
solar generation facility, which the base will have access to during 
external grid outages. Marine Corps Logistics Base Albany will receive 
access to a 44 MW on-base solar generation facility for use during grid 
outages and a second feeder line from Georgia Power Company's grid.
    DON's successful industry partnerships form a foundation for future 
third party-financed energy resiliency projects in the form of 
microgrids, battery storage, fuel cells, and distributed generation, 
where these capabilities make sense. Industry has shown interest in 
battery storage by proposing facilities located at two Navy 
installations in California. The Arizona Power Service recently signed 
an agreement to develop a microgrid at Marine Corps Air Station Yuma 
and will provide the base unlimited access to onsite backup power, 
eliminating the need for up to 41 diesel generators. These and future 
energy security efforts using existing Title 10 authorities will help 
make DON's installations more energy secure and resilient mission 
platforms.
Strategic Investments in the Future
    We endeavor to make investments that enhance our operational 
flexibility. Our program to test and certify emerging alternative fuels 
is critical for us to keep pace with developments in the private sector 
and maintain interoperability with commercial supply chains. In 
addition, the Defense Logistics Agency (DLA) Energy (through which Navy 
buys operational fuels) recently awarded a contract to provide us with 
an alternative fuel blend of F-76--the fuel we use to power our ships. 
The contract was awarded at a cost competitive rate with traditional 
fossil fuels and represents an important step toward diversifying our 
fuel supply chains.
                               conclusion
    Navy-Marine Corps Energy, Installations and Environment team will 
continue to carefully and deliberately manage our portfolio to optimize 
mission readiness, and improve quality of life. The Department's fiscal 
year 2017 request makes needed investments in our infrastructure and 
people, preserves access to training ranges, and promotes 
environmentally prudent and safe actions, while ensuring energy 
resiliency and security.
    Thank you for the opportunity to testify before you today. I look 
forward to working with Congress to deliver an innovative, resilient, 
sustainable and secure shore infrastructure that enables mission 
success for the United States Navy and Marine Corps, the most 
formidable expeditionary fighting force in the world.

    Senator Kirk. Thank you.
    Let me ask, Katherine, you talked about strategic risks 
with the Army. I will show you what I regard as the face of 
strategic risk at Al Udeid Air Base, which we all call in the 
military the Deid.
    If you could take a look, these pictures were taken by a 
guardsman, and they have gone somewhat viral on Facebook. I 
want to make sure that our men and women in uniform are not 
facing mold contamination like this.
    When you talk about strategic risk, that is a very 
bureaucratic way of saying that this is what you would stick 
our soldier to live in.
    Ms. Hammack. One of the challenges that I am sure Secretary 
Ballentine will talk about is that the Air Force, just like the 
Army, is not funded to 100 percent of our sustainment 
requirements.

                          SUSTAINMENT FUNDING

    The Navy just talked about being funded at around 73 
percent. The Army is at 71 percent. I know that the Air Force 
is facing challenges.
    When we have known problems, we work to address them and 
identify resources or reprioritize resources. It is a challenge 
that all services are facing, to keep up with the environmental 
requirements.
    Senator Kirk. Thank you.

                      Department of the Air Force

STATEMENT OF HON. MIRANDA A.A. BALLENTINE, ASSISTANT 
            SECRETARY OF THE AIR FORCE, INSTALLATIONS, 
            ENVIRONMENT, AND ENERGY
    Ms. Ballentine. Good morning, Mr. Chairman. Chairman Kirk, 
Ranking Member Tester, esteemed members of the subcommittee, it 
is a great pleasure and honor to represent America's airmen 
before you today.
    The bottom line is the Air Force installations are too big, 
too old, and too expensive to operate. Twenty-four years of 
continuous combat in a fiscal environment constrained by the 
Budget Control Act have truly taken their toll.
    In order to afford other Air Force priorities, like our 
sister services, our total fiscal year President's budget 2017 
facilities budget at $8.3 billion is down 4 percent from last 
year, including MILCON, facilities sustainment, restoration and 
modernization (FSRM), housing, BRAC, and environmental 
programs.
    The Air Force has prioritized MILCON over FSRM in fiscal 
year 2017, requesting $1.8 billion in MILCON, that is a 14-
percent increase over last year, and $2.9 billion in FSRM, 
which is down about 10 percent compared to last year.
    I expect the backlog of degrading facility requirements to 
grow.
    Our MILCON program is three-tiered. First, MILCON to 
support combatant commander requests is about 16 percent of the 
MILCON budget. Second, 34 percent of the fiscal year 2017 
MILCON program ensures that we have the infrastructure to 
support new weapons systems beddown. Third, about 40 percent of 
the fiscal year 2017 MILCON request allows us to chip away at 
the very significant backlog of existing mission infrastructure 
recapitalization needs.
    In fiscal year 2017, we funded only about 30 projects of 
the 500 top priority projects that our commanders submitted.
    Let me briefly address Air Force energy programs. The Air 
Force is focused on mission assurance through energy assurance. 
We are taking a holistic enterprise approach to installation 
energy with an emphasis on resilient cost-competitive, cleaner 
power. The Air Force is also developing, acquiring, and 
improving aviation energy technologies and behaviors to improve 
the range and endurance of our weapons systems.
    Finally, the Air Force needs another round of base 
realignment and closure. We have about 30 percent excess 
infrastructure capacity. Since the Gulf War, we have reduced 
combat coded fighter squadrons from 134 to 55, a nearly 60-
percent reduction. Yet, all BRACs in that time period have only 
reduced U.S. Air Force bases by 15 percent.
    BRAC is not easy, and Congress has shared three very 
specific concerns.
    First, communities. Air Force communities are some of our 
greatest partners. The Association of Defense Communities 
recently asked community leaders what they thought about BRAC. 
About 92 percent said that they believe the status quo of 
hollowed-out bases, reduced force structure, and reduced 
investments is worse for their communities than another round 
of BRAC--92 percent.
    Without BRAC, many communities will continue to suffer the 
economic detriment of hollowed-out bases without the economic 
support that BRAC legislation provides.
    Second, cost. Congress rightly wants to ensure that the 
savings of BRAC justify the costs, and, of course, we agree. 
Simply put, the results of BRAC have been staggering.
    Previous rounds of BRAC saved the Air Force $2.9 billion 
each and every year, and the Air Force supports new BRAC 
legislation that emphasizes recommendations that yield net 
savings within 5 years.
    Third, mission. Some have questioned the wisdom of 
rightsizing infrastructure to our current force structure. I 
want to assure you that we have no intent to close 
infrastructure that may support future needs. Through five 
previous rounds of BRAC and numerous force structure changes, 
we have always left the room for future maneuvering, and we 
always will.
    We will continue to leverage community partnerships, 
enhanced use leases, power purchase agreements, but we really 
need BRAC authority to get at those significant savings.
    In closing, the Air Force made hard strategic choices 
during the formulation of this budget request in attempting to 
strike that delicate balance between a ready force for today 
and a modern force for tomorrow. We believe it is the right way 
ahead.
    Chairman Kirk, Ranking Member Tester, and esteemed members, 
I request your support for the fiscal year 2017 MILCON request. 
Thank you, and I look forward to your questions.
    [The statement follows:]
          Prepared Statement of Hon. Miranda A. A. Ballentine
                              introduction
    Ready and resilient installations are a critical component of Air 
Force operations. Unfortunately, 24 years of continuous combat, a 
fiscal environment constrained by the Budget Control Act (BCA), and a 
complex security environment have taken their toll on Air Force 
infrastructure and base operations support investments. Furthermore, 
the Air Force is currently maintaining installations that are too big, 
too old and too expensive for current and future needs. This forces us 
to spend scarce resources on excess infrastructure instead of 
operational and readiness priorities.
    Air Force installations are foundational platforms comprised of 
both built and natural infrastructure. Our installations serve as the 
backbone for Air Force enduring core missions delivering air, space and 
cyberspace capabilities; sending a strategic message to both allies and 
adversaries signaling commitment to our friends and intent to our foes; 
foster partnership-building by stationing our airmen side-by-side with 
our Coalition partners; and enable worldwide accessibility when our 
international partners need our assistance and, when necessary, to 
repel aggression. Taken together, these strategic imperatives require 
us to provide efficiently operated, sustainable installations to enable 
Air Force core missions.
    The total Air Force fiscal year 2017 facilities budget request is 
down 4 percent from fiscal year 2016 at $8.5 billion including Military 
Construction (MILCON), Facility Sustainment, Restoration and 
Modernization (FSRM), Housing, BRAC implementation and Environmental 
programs. As in fiscal year 2016, the fiscal year 2017 President's 
budget (PB) request for the Air Force attempts to strike the delicate 
balance between a ready force today and a modern force for tomorrow 
while also continuing its recovery from the impacts of sequestration 
and adjusting to sustained budget reductions. The result is the Air 
Force facilities budget accepts near term risk in the entire 
infrastructure Maintenance and Repair portfolio of MILCON and 
Sustainment, Restoration and Modernization accounts in order to protect 
readiness and maintain credible capabilities in other core missions. In 
doing so, it acknowledges this choice will have long term effects on 
the overall health of infrastructure.
    The Air Force's fiscal year 2017 President's budget includes $1.8 
billion in Military Construction (MILCON) requirements, a 14 percent 
increase over the fiscal year 2016 President's budget. This allows the 
Air Force to replace degraded facilities that can no longer wait, while 
still meeting Combatant Commander (COCOM) needs and new weapon systems 
beddown requirements that must be accomplished now. This also allows us 
to provide an equitable distribution of $333 million to the Guard and 
Reserve components. This increase was funded by reductions in our 
Sustainment, and Restoration and Modernization accounts for which we 
request $2.9 billion, about 10 percent less than last year. We 
recognize this reduction will expand a backlog of facility investment 
requirements that already totals nearly $20 billion. To assure 
continued focus on taking care of our airmen and their families, the 
fiscal year 2017 President's budget also requests $274 million for 
Military Family Housing operations and maintenance, and $61.4 million 
for Military Family Housing Construction, $56.4 million for Base 
Realignment and Closure and $842 million for Environmental programs.
                         military construction
    The fiscal year 2017 MILCON program consists of three primary 
tiers. The first is support to the COCOMs; the second is providing 
facilities for the beddown of new weapons systems by their need dates; 
and the third is replacing our most critical existing mission degraded 
infrastructure on a worst-first basis.
COCOM Support
    This year's President's budget request includes $293 million for 
COCOM requirements; $35 million for Central Command (CENTCOM), $97 
million for European Command (EUCOM), $29 million for Northern Command 
(NORTHCOM), and $293 million for Pacific Command (PACOM). The Air Force 
continues with phase three of the U.S. European Command Joint 
Intelligence Analysis Center consolidation at Royal Air Force (RAF) 
Croughton, United Kingdom, which also supports four other COCOMs. 
Additionally, the Asia-Pacific Theater remains a focus area for the Air 
Force where we will make a $109 million investment in fiscal year 2017 
to ensure our ability to project power into areas which may challenge 
our access and freedom to operate, and continue efforts to improve 
resiliency. Guam remains one of the most vital and accessible locations 
in the western Pacific. For the past 10 years, Joint Region Marianas 
(JRM)-Andersen AFB, Guam has housed a continuous presence of our 
Nation's premier air assets, and will continue to serve as the 
strategic and operational center for military operations in support of 
a potential spectrum of crises in the Pacific. Additionally, fiscal 
year 2017 investments in the Pacific Theater include Kadena Air Base, 
Japan; Royal Australian Air Force Base (RAAF) Darwin, Australia; and 
the Commonwealth of Northern Marianas Islands (CNMI).
    To further support PACOM's strategy, the Air Force is committed to 
hardening critical structures, mitigating asset vulnerabilities, 
increasing redundancy, fielding improved airfield damage repair kits 
and upgrading degraded infrastructure as part of the Asia-Pacific 
Resiliency program. In 2017, the Air Force plans to construct a 
Satellite Communications Command, Control, Communications, Computers 
and Intelligence facility at JRM-Andersen AFB, Guam to sustain Guam's 
continued functionality. The Air Force also intends to recapitalize the 
munitions structures in support of the largest munitions storage area 
in the Air Force. Furthermore, the fiscal year 2017 budget invests in 
the aircraft parking apron expansion and aircraft maintenance support 
facility projects at RAAF Darwin supporting the Air Force's 
participation in bilateral training exercises. The fiscal year 2017 PB 
investment also includes a land acquisition in CNMI, to support the Air 
Force's operational capability to execute weather diverts, accomplish 
training exercises and respond to natural disasters. Our total fiscal 
year 2017 COCOM support makes up 16 percent of the Air Force's MILCON 
request.
New Mission Infrastructure
    The fiscal year 2017 President's budget request includes $623 
million of infrastructure investments to support the Air Force's 
modernization programs, including the beddown of the F-35A, KC-46A, 
Combat Rescue Helicopter (CRH) and the Presidential Aircraft 
Recapitalization. The Air Force's ability to fully operationalize these 
new aircraft depends not only on acquisition of the aircraft 
themselves, but also on the construction of the aircraft's accompanying 
hangars, maintenance facilities, training facilities, airfields and 
fuel infrastructure.
    The fiscal year 2017 PB includes $132.6 million for the beddown of 
the KC-46A at five locations. This consists of $11.6 million at Altus 
AFB, Oklahoma, the Formal Training Unit (FTU); $8.6 million at 
McConnell AFB, Kansas, the first Main Operating Base (MOB 1); $1.5 
million at Pease International Tradeport Air National Guard Base 
(ANGB), New Hampshire, the second Main Operating Base (MOB 2); $17 
million at Tinker AFB, Oklahoma, for KC-46A depot maintenance; and 
$93.9 million at Seymour Johnson AFB, NC, the preferred alternative for 
the third Main Operating Base (MOB 3).
    This request also includes $340.8 million for the beddown of the F-
35A at five locations consisting of $10.6 million at Nellis AFB, 
Nevada; $20 million at Luke AFB, Arizona; $10.1 million at Hill AFB, 
Utah; $315.6 million at Eielson AFB, Alaska; and $4.5 million at 
Burlington International Airport, Vermont. Additionally, the fiscal 
year 2017 investment includes $7.3 million in support of the CRH 
beddown at Kirtland AFB, New Mexico. As the Air Force continues its 
efforts to modernize its fleet, we have moved forward to select 
installations to beddown our newest airframes. In January of this year, 
we announced the enterprise and criteria for the fourth KC-46A Main 
Operation Base (MOB 4).
    In preparation for the Presidential Aircraft Recapitalization 
acquisition, the Air Force's 2017 budget request accounts for the 
planning and design requirements essential to this future beddown and a 
project to relocate the Joint Air Defense Operations Center Satellite 
Site at Joint Base Andrews, Maryland.
Existing Mission Infrastructure Recapitalization
    This year's President budget request also includes $723 million in 
MILCON recapitalization projects addressing existing mission 
infrastructure. Existing mission projects include requirements that 
revitalize the existing facility plant and projects that address new 
initiatives for capabilities already contained in the Air Force 
inventory. The Air Force's fiscal year 2017 PB supports Nuclear 
Enterprise priorities and includes three MILCON projects, totaling $41 
million. With this budget submission, the Air Force intends to provide 
a Missile Transfer Facility at F.E. Warren AFB, Wyoming, which 
recapitalizes the current facility and continues to ensure proper 
processing of missiles in support of the Missile and Alert Launch 
Facilities at three sites. The fiscal year 2017 budget also includes a 
Consolidated Communications Facility recapitalization project at 
Barksdale AFB, Louisiana. Additionally, a new Missile Maintenance 
Dispatch Facility at Malmstrom AFB, Montana will be built in support of 
the UH-1 Helicopter and Tactical Response Force facilities beddown. 
Together, these projects will consolidate scattered installation 
functions and provide adequately sized and configured operating 
platforms for the UH-1 recapitalization. Additionally, the fiscal year 
2017 PB request includes three munitions storage projects to 
accommodate the realignment and relocation of primary Standard Air 
Munitions Package assets from McConnell Air Force Base, Kansas to Hill 
Air Force Base, Utah.
    The Air Force's fiscal year 2017 PB supports airfield 
recapitalization requirements to include a project to construct an 
updated, properly sized Air Traffic Control Tower at McConnell Air 
Force Base, Kansas and a new aircraft maintenance hangar in support of 
the Global Hawks at JRM-Andersen AFB, Guam. Additionally, the Air 
Force's fiscal year 2017 PB supports force protection recapitalization 
requirements to include a project that constructs a compliant main gate 
complex at RAF Croughton, United Kingdom and new Combat Arms Training 
Maintenance facilities at Buckley Air Force Base, Colorado, Yokota Air 
Base, Japan, and Joint Base-Andrews, Maryland.
    In total, our fiscal year 2017 request represents a balanced 
approach ensuring critical infrastructure requirements to meet mission 
needs and operational timelines.
          facility sustainment, restoration and modernization
    In fiscal year 2017, the Air Force requests $2.9 billion for 
Facilities Sustainment, Restoration and Modernization (FSRM), which is 
approximately 10 percent less than our fiscal year 2016 PB request and 
funds sustainment to 77 percent of the OSD modeled requirement. The 
Restoration and Modernization account is reduced by 34 percent in 
fiscal year 2017 as compared to fiscal year 2016. The Air Force cut 
this account in order to increase the MILCON program and therefore 
reduce the greatest risk within the facility infrastructure portfolio 
this year. Nonetheless, the Air Force's fiscal year 2017 FSRM request 
attempts to keep ``good facilities good'' as the AF continues to focus 
limited resources on ``mission critical, worst-first'' facilities 
through application of asset management principles.
                                housing
    During periods of fiscal turmoil, we must never lose sight of our 
airmen and their families. Airmen are the source of Air Force air 
power. Regardless of the location, the mission, or the weapon system, 
our airmen provide the innovation, knowledge, skill, and determination 
to fly, fight and win. There is no better way for us to demonstrate our 
commitment to service members and their families than by providing 
quality housing on our installations. The Air Force has privatized its 
military family housing (MFH) at each of its stateside installations, 
including Alaska and Hawaii. The Air Force has 32 projects at 63 bases, 
with an end-state of 53,240 homes and we are now focused on long-term 
oversight and accountability of the sustainment, operation and 
management of this portfolio.
    Concurrently, the Air Force continues to manage approximately 
18,000 Government-owned family housing units at overseas installations. 
Our $274 million fiscal year 2017 Family Housing Operations and 
Maintenance (O&M) sustainment funds request allows us to sustain 
adequate units and improve inadequate units, and our $61.4 million 
request for Family Housing Construction funds improves 204 tower units 
at Camp Foster, Okinawa and 12 units on Kadena Air Base. This request 
will ensure we support the housing requirements of our airmen and their 
families as well as the Joint Service members the Air Force supports 
overseas.
    Similarly, our focused investment strategy for dormitories enables 
the Air Force to achieve the DOD goal of 90 percent adequate dormitory 
rooms for permanent party unaccompanied airmen, while continuing to 
support airmen in formal training facilities. The fiscal year 2017 PB 
MILCON request includes two training dormitories at Fairchild AFB, 
Washington and Joint Base San Antonio, Texas. With congressional 
support, we will continue to ensure wise and strategic investment in 
these quality of life areas to provide modern housing and dormitory 
communities. More importantly, your continued support will take care of 
our most valued asset--our airmen and their families.
                air force community partnership program
    In support of the Air Force priority to ``make every dollar 
count'', the Air Force has put a concentrated effort to cultivate 
partnerships between our installations and the local communities. The 
Air Force Community Partnership program has been heralded by our Wing 
Commanders and community leaders as an ideal forum for exploring win-
win partnerships. To date, there are 53 installations and communities 
participating in the Air Force Community Partnership program. Since the 
program's inception in 2013, we have completed more than 140 
partnership agreements that have generated over $23 million in Air 
Force benefits and $24 million in community benefits. Beyond the 
tangible savings, the program creates an invaluable forum for fostering 
relationships and promoting innovation. Installations and communities 
now have the framework and tools needed to finalize many of the over 
1,000 potential initiatives identified to date, such as shared medical/
EMT training, joint small arms ranges, and shared refuse management 
services.
    Without losing focus on fostering a partnership mentality across 
the Air Force, we are now turning our attention to cultivate 
initiatives that show significant promise of large returns-on-
investment (ROI) or have Air Force-wide application. In the future, the 
Air Force Community Partnership program will continue to strengthen its 
foundation by building upon concepts under development while 
reallocating resources towards initiatives with large returns on 
investment.
    Of course, we need your help to pursue the initiative, which has, 
by far, the largest return-on-investment--Base Realignment and Closure.
                  base realignment and closure (brac)
    The Air Force has more infrastructure capacity than our missions of 
today and tomorrow require. Our numbers of aircraft and personnel have 
drawn down significantly since the Cold War. Since the last round of 
BRAC in 2005, we have continued to drawdown our forces, but we have not 
paired these drawdowns with comparable reductions in our 
infrastructure. Since BRAC 2005, the Air Force has thousands fewer 
personnel and hundreds fewer aircraft in our planned force structure, 
yet we have not closed a single installation in the United States. 
Ultimately, we are paying to retain more installations than we require, 
and that money could be used to recapitalize and sustain our weapons 
systems, on readiness training, and on investing in airmen quality of 
life programs.
    Congress has expressed concerns that BRAC may cost too much, is 
often hard on communities, and may not adequately consider potential 
future growth of our forces.
    Regarding cost, Air Force experience shows that BRAC provides 
significant savings. BRAC pays for itself. In each prior round of BRAC, 
including BRAC 2005, the Air Force achieved net savings during the 
implementation period. Couple that with the plain truth that the Air 
Force simply cannot afford to maintain our current infrastructure 
footprint, and our request for BRAC makes fundamental economic sense. 
The Air Force has a $20 billion facility investment backlog. We 
estimate (parametrically) that we currently have about 30 percent 
excess infrastructure capacity when measured against our fiscal year 
2019 force structure. Sustaining and maintaining this extra 
infrastructure further strains our limited funds by forcing us to 
spread them even thinner to support infrastructure that we simply do 
not need. Without previous rounds of BRAC, the Air Force infrastructure 
bill would be about $3 billion higher each year than it is now. BRAC 
has been effective in reducing our infrastructure cost and we need 
another round to truly align our infrastructure to our force structure. 
We acknowledge there will be upfront costs, but those costs are the 
down payment to significant savings in the future.
    Regarding BRAC's impact on communities, we understand that Air 
Force installations are key components of their communities. These 
communities house not only our missions but also our families; our kids 
go to the local schools; our airmen attend the local sporting events; 
our families volunteer across the spectrum of activities--these 
communities are our neighbors. With that in mind, the Association of 
Defense Communities asked our neighbors what they thought about BRAC, 
and 92 percent of community leaders \1\ believe BRAC is better for 
their community than the status quo of hollowed bases, reduced manning 
and minimal investment. As BRAC is, by nature, a consolidation effort, 
some installations will be the recipients of new missions and these 
communities will benefit from the economic boost that increased 
installation activity will provide. Other installations will close; 
however, it is only under BRAC that communities whose bases are closing 
will receive direct economic support through redevelopment guidance and 
financial assistance. Based on prior rounds of BRAC, communities in 
which bases closed had lower unemployment rates and higher per capita 
income growth than national averages.\2\ Additionally, the Air Force is 
committed to partnering with DOD, Congress, and communities to consider 
alternative approaches to the prolonged BRAC analysis and selection 
process that puts an economic drag on all communities surrounding 
military installations. In sum, without a BRAC, the Air Force will 
continue to spread out our people and force structure, and as this 
occurs many communities will continue to suffer the economic detriment 
of hollowed out bases without the economic support that BRAC 
legislation provides. This lose-lose scenario can only be reversed 
through BRAC.
---------------------------------------------------------------------------
    \1\ From the June 2015 Association of Defense Communities National 
Summit at which General Session audience members were asked: ``What 
would be worse for defense communities?'' and chose from ``Status Quo'' 
or ``BRAC''.
    \2\ From Government Accountability Office (GAO) studies GAO-05-138 
and GAO-13-436.
---------------------------------------------------------------------------
    Finally, Congress has expressed concerns that a BRAC will enable 
reductions in infrastructure that do not account for potential future 
force structure growth. In asking for the authority to permanently 
reduce our infrastructure footprint, the Air Force has considered both 
its needs for today and its needs for the future. The Air Force has no 
intent to close infrastructure that may support any realistically 
achievable surge or contingency needs of the future. While we estimate 
30 percent excess infrastructure capacity, the Air Force would build 
specific reduction targets on future needs, and seek to reduce only 
infrastructure that exceeds future scenarios. BRAC would be driven 
first by a military value assessment grounded in operational needs, and 
would not compromise future growth in force structure. In comparing 
infrastructure capacity with force structure requirements going back to 
the 1990s, the Air Force has never dipped below 20 percent excess 
infrastructure capacity \3\ despite numerous force structure changes 
and five previous rounds of BRAC. Thus, we believe we have the 
opportunity to significantly reduce excess capacity while ensuring more 
than adequate infrastructure to support any envisioned force structure. 
Further, we are certain that BRAC provides the most effective means for 
our infrastructure to achieve the right balance of effectiveness, 
efficiency, and support to AF missions.
---------------------------------------------------------------------------
    \3\ From DOD reports to Congress on BRAC and capacity in April 1998 
and March 2004 in accordance with section 2912 of the Defense Base 
Closure and Realignment Act of 1990.
---------------------------------------------------------------------------
                             climate change
    The 2010 and 2014 Quadrennial Defense Reviews (QDRs) recognized 
that climate change will shape DOD's operating environment, roles, and 
missions, and that we will need to adjust to the impacts of climate 
change to our facilities, infrastructure and military capabilities. As 
part of a larger DOD effort, the Air Force recently collected data from 
over 1,500 sites regarding impacts from past severe weather events. 
Surveyed sites not only included major installations, but also radar/
communications sites, housing annexes, training ranges, missile sites, 
etc. Sixty percent of all sites reported some impact due to past 
flooding, extreme temperatures, drought, wildfire, and wind. The single 
most prevalent factor was drought which accounted for 42 percent of all 
reported impacts, followed by non-storm surge flooding and wind with 19 
percent each. Further, roughly a third of the 78 sites within 2 
kilometers of the coast reported having experienced storm surge 
flooding.
    There are several pertinent examples of how climate change is 
affecting our plans for current and future infrastructure operations. 
The Air Force recently completed a study on the risks of coastal 
erosion to remote Alaskan radar sites. Our radar stations are at risk 
due to rapid, significant coastal erosion because the shore ice that 
used to protect the coast from waves has melted. We continue to study 
the rate of erosion, mitigate impacts and incorporate considerations in 
future planning for these sites.
    The DOD climate survey provided qualitative data that helped to 
frame a more holistic understanding of the impacts of climate on 
installations and operations. For the majority of reported severe 
weather events, bases reported emergency preparedness actions and 
procedures were successful in mitigating impacts on mission and 
personnel. That being said, mitigation becomes more difficult and 
cumulative impact to missions more crippling with increasing frequency 
and/or magnitude of severe weather events. The Air Force continues to 
integrate climate considerations into individual mission and 
installation planning efforts to produce informed and resiliency-
focused decisions.
                                 energy
    The Air Force is the largest single consumer of energy in the 
Federal Government. Air Force budgetary constraints have strained 
investments in right-sizing, modernizing, and maintaining power 
systems. As energy costs increase and budgets decrease, energy places 
greater pressure on the constrained Air Force budget. From a cost 
perspective, in fiscal year 2015, the Air Force spent approximately 
$8.4 billion on fuel and electricity, with more than 86 percent going 
towards aviation fuel. That $8.4 billion represented approximately 8 
percent of the total Air Force budget; only 10 years ago, less than 4 
percent of the budget went towards energy expenses. As we refocus our 
efforts, the Air Force will take a multi-faceted energy investment 
approach to enhance mission assurance.
               mission assurance through energy assurance
    The Air Force's ability to accomplish its mission--whether 
executing today's fight or training for future fights--is dependent on 
fuel and installation electricity. We must ensure reliable, resilient, 
cost-competitive power for our airmen to fly, fight and win. To do so, 
the Air Force has revectored its installation energy program from a 
largely conservation oriented stance to one of energy resilience 
through strategic agility in installation energy programs and projects. 
The guiding tenet for this strategic agility is ``Mission Assurance 
Through Energy Assurance.'' This new paradigm focuses on providing the 
Air Force with the ability to complete its mission in light of 
disruptions to electricity and fuel, as well as optimizing its energy 
productivity through improvements in technology and process.
                          installation energy
    Over the last several years, the Air Force has seen installations 
lose power for significant periods of time as a result of ice storms, 
hurricanes, fallen trees, and other forms of denial of service. So far, 
the Air Force has been able to mitigate the most critical mission 
impacts due to those power losses by exercising alternatives such as 
moving missions in the case of weather events. There are several 
critical missions, however, that cannot be moved and where even a 
microsecond interruption in power puts Air Force mission capabilities 
at risk. Even though the Air Force has reduced its energy intensity by 
more than 23 percent since fiscal year 2003, we still rely almost 
exclusively on expensive, non-networked diesel generators limited to 
very specific systems to provide the only depth of resiliency beyond 
that inherent in the electrical grid in our system. While that can be 
sufficient for short outages, today's grid is increasingly threatened 
by cyber incursions and physical attacks designed to disrupt power; 
increasing frequency and severity of natural disasters; and 
malfunctions from human error, aging equipment, and faulty 
infrastructure; all with the potential for long-term outages. To that 
end, we must enhance the energy resilience of Air Force installations 
through the adoption of innovative technologies and business models.
    Going forward, the Air Force will transition to a more 
comprehensive approach to installation energy challenges, and it will 
holistically optimize cost and provide resilient, cleaner sources of 
energy by balancing the objectives of AF energy projects, including 
energy efficiency, renewable energy, energy resilience, and other 
energy projects. The core principles below will continue to 
characterize Air Force installation energy projects, but with an 
increased focus on meeting multiple objectives within single projects.

  --Resilient: Every Air Force energy project should be designed 
        through the lens of enhancing energy resilience; the strategic 
        energy agility to maintain critical mission functions even 
        during unexpected disruptions. Air Force missions require agile 
        networks of platforms, communications equipment, satellites, 
        and other technology and equipment. The Air Force will secure 
        critical infrastructure and missions through a layered approach 
        to energy resilience, taking advantage of rapidly evolving 
        energy technologies to meet both home station and expeditionary 
        needs. The Air Force will buttress commercial power with on-
        site electricity generation (preferably cleaner) paired with 
        smart distribution networks and cyber-secure control systems, 
        enabled to power critical infrastructure during grid 
        disruptions.
  --Cost-competitive: Air Force installations and commands should 
        continue to ``make every dollar count'' when acquiring 
        advanced, cleaner energy projects, while also examining trade-
        offs between lowest price and other priorities such as 
        resilience. The Air Force will continue to pursue energy 
        projects or transactions that will save money, leverage third-
        party investment, and prioritize resources to projects that 
        also enhance energy resilience and reliability.
  --Cleaner: Three global trends identified in ``America's Air Force: A 
        Call to the Future'' (rapidly evolving technologies, decreasing 
        availability of natural resources, and diverse operating 
        environments) work in favor of energy modernization. Renewable 
        and other distributed energy technologies are key components of 
        energy agility and assurance, especially when projects are on 
        site and capable of delivering continuous energy when the grid 
        is disrupted.
                               resilience
    To help achieve Air Force energy resiliency goals, the Secretary 
and the Chief of Staff of the Air Force established the Air Force 
Office of Energy Assurance (AF-OEA) to serve as a central management 
office dedicated to the development, implementation, and oversight of 
privately-financed, large-scale renewable and alternative energy 
projects. This office leverages partnerships with the Army's Office of 
Energy Initiatives and Navy's Renewable Energy Program Office to 
develop projects that contribute to strategic energy agility by 
identifying and awarding third-party financed energy projects that 
provide 10MW or greater and cleaner (but preferably renewable) power 
that increases energy resiliency. These projects will provide 
significant energy alternatives to assure Air Force missions in the 
event of grid outages for short or long periods. The Air Force is 
establishing this office with existing personnel resources and will not 
include any new headquarters personnel; rather, it will co-locate AF-
OEA with the Army's Office of Energy Initiatives to share support and 
processes, and move forward as a team. The AF-OEA will proactively team 
with the Navy's Renewable Energy Program Office to optimize 
opportunities that office identifies.
    Finally, AF-OEA is charged to take a holistic, enterprise-level 
approach to its energy assurance programs brought to bear on the Air 
Force's mission assurance through an energy assurance approach. This 
includes clean, cost-competitive, reliable and resilient energy through 
the application of utilities privatization, power purchase agreements, 
direct investment (e.g., energy conservation investment program), and 
third-party financed (e.g., ESPCs, etc.) authorities Congress has 
granted the Air Force. All available tools will be used.
                            cost competitive
    Although current and projected energy prices are relatively low, 
from a mission perspective, price volatility does not change mission 
vulnerability. With mission assurance as our focus, the Air Force still 
recognizes the need to reduce the cost of energy to allow our dollars 
to support readiness and recapitalization requirements. The Air Force 
directly invests in facility energy projects primarily using FSRM 
funding based on Air Force priorities. Based on an historical average, 
the Air Force anticipates approximately $223 million of its FSRM 
funding going towards projects with energy benefits such as increased 
resiliency and efficiency through modernized infrastructure.
    While the Air Force has made considerable progress to avoid costs 
through reduced energy consumption, there is more to do. The Air Force 
is pursuing Energy Savings Performance Contracts (ESPC) and Utility 
Energy Service Contracts (UESC) to fund energy conservation projects. 
Since fiscal year 2012, the Air Force has awarded approximately $128 
million across eight ESPCs and UESCs. In fiscal year 2016, the Air 
Force expects to award up to $359 million in such contracts. To take 
advantage of existing expertise, the Air Force has also partnered with 
the Defense Logistics Agency (DLA) and the U.S. Army Corps of Engineers 
(USACE) to expand its ability to identify and execute third-party 
performance contracts.
                              clean energy
    The Air Force recognizes both clean energy, and its more desirable 
renewable subcomponent, are key elements to diversifying our energy 
portfolio to achieve strategic energy agility. By the end of fiscal 
year 2015, the Air Force had 311 renewable energy projects on 104 
sites, either installed, in operation, or under construction, across a 
wide variety of renewable energy sources, including wind, solar, 
geothermal, and waste-to-energy projects. Cumulatively, the Air Force 
has 104.3 megawatts of on-base renewable energy capacity. These 
projects, which are typically owned and operated by private industry, 
have increased energy production on Air Force installations by more 
than 26 percent from fiscal year 2014 to fiscal year 2015. About 8 
percent of the Air Force's total electrical energy consumption in 
fiscal year 2015 came from a mixture of renewable on-base projects and 
purchased commercial renewable supply. Unfortunately, little of this 
energy can be directly consumed by our bases in the event of a grid 
outage. As we evaluate both direct investment and third party 
investment opportunities, the Air Force will exhibit preference for 
renewable solutions where cost effective, followed by clean but not 
renewable solutions, and ultimately by solutions that provide mission 
assurance through energy assurance without a clean element.
                             the sweet spot
    Each of the principles above are spectrums, and the Air Force does 
not consider them ``either-or'' choices. The ``sweet spot'' projects 
will have elements of all three core principals, but not every project 
will demonstrate every characteristic. The Air Force will expect each 
project to demonstrate a clear connection to at least two principles. 
Projects that only achieve one principle will need strong mission 
justification. In short, energy projects should move toward the ``sweet 
spot.''
                           operational energy
    Similar to the installation energy program, mission assurance is 
the basis for the Air Force's operational energy program. Through 
behavioral and technological advancements, the Air Force is optimizing 
its capabilities in order to maximize combat readiness and reduce the 
mission risks posed by our fuel supply challenges. With more than 5,000 
aircraft in the Air Force fleet, and a demand for over two billion 
gallons of jet fuel every year, improving how the aircraft and crew use 
their fuel can generate significant increases in capabilities. To 
address the risks posed by that demand, the Air Force has a goal to 
improve its fleet aviation energy efficiency, defined as productivity 
per gallon, by 10 percent by 2020. Since developing the goal in fiscal 
year 2011, the Air Force has improved its aviation energy efficiency by 
almost 6 percent through a combination of materiel solutions and 
changes to policies and processes.
    The Air Force is requesting $682.6 million in operational energy 
related funding for fiscal year 2017. Included in this is $567.1 
million to increase future warfighter capabilities, $4.5 million to 
reduce the logistical risks to the mission from energy, and $111.0 
million to improve current mission effectiveness.
                           materiel solutions
    The Air Force faces a challenge when implementing materiel 
solutions, as many of them require high upfront investments with long-
term paybacks. However, those paybacks often provide significant 
returns in both fuel savings and reduced maintenance requirements. The 
Air Force is in the midst of a propulsion upgrade program for the KC-
135 at a rate of 100 to 120 engines per year for the next 12 years, at 
a cost of approximately $106 million per year. While this is primarily 
a service-life extension effort, it provides a 1.5 percent reduction in 
its fuel consumption rate per engine. Additionally, by improving 
reliability and durability, these upgrades will provide lifetime fuel 
and maintenance savings approaching $3 billion.
                         science and technology
    Part of the Air Force's funding request for fiscal year 2017 is for 
research, development, test and evaluation (RDT&E) opportunities with 
operational energy benefits. One of the main operational energy related 
projects is developing new adaptive engine technology, which provides 
revolutionary advances in turbine engine performance. By incorporating 
these advanced technologies, the Air Force will be demonstrating a 
transformational engine that can operate with the power and performance 
needed for a combat aircraft, while maintaining the higher fuel 
efficiency of large aircraft. Based on the results of Air Force lab 
experimentation, this engine will provide 25 percent greater fuel 
efficiency, 30 percent greater range, 10 percent greater thrust, and 
improved thermal management compared to current engines.
                        modeling and simulation
    While the Air Force is enhancing its fleet through current and 
future materiel solutions, it is also looking to improve how it manages 
fuel usage for future conflicts. As part of the Joint Operational 
Energy Modeling and Simulation (JOEMS) project, the Air Force is 
leading a collaborative effort to examine how technology upgrades 
impact operations in various scenarios through identification of fuel 
usage requirements and logistical fuel supply challenges. By 
incorporating energy considerations in wargames and other modeling and 
simulation efforts, the Air Force can better understand the role fuel 
and logistics can play in future operations. The way it manages and 
consumes fuel can be a catalyst towards a successful mission, and the 
Air Force is driving forward to ensure it maintains an energy advantage 
against potential adversaries.
                            process changes
    The Air Force is also actively fostering an energy-aware culture 
that empowers airmen to take a smart approach to energy to better 
complete their mission. Simple changes in how a pilot flies and trains 
can affect aircraft fuel consumption. Through the Energy Analysis Task 
Force (EATF), the Air Force studied how instructor pilots and simulator 
instructors at Vance AFB in Oklahoma could incorporate fuel efficiency 
concepts into pilot training to ensure new pilots understand how to 
optimize fuel use. As part of a year-long trial, the EATF developed 
four training techniques to reduce fuel consumption in the T-1A 
Jayhawk, which were tested in T-1 simulators with a small group of 
students. The energy efficiency techniques explored for integration 
into the T-1 syllabus have the potential to save up to 6 percent in 
fuel requirements on navigation training sortie profiles. One of these 
techniques, called the Fuel Efficient Descent, involves teaching 
student pilots to select the optimal point to begin their descent into 
an airfield. When the students select the correct point to begin their 
descent, they are able to reduce engine power to idle and descend using 
minimum fuel. So far, the new technique has proven the potential to 
reduce fuel usage by 35 percent during the descent phase of flight.
    While this effort saves fuel today, it goes much further by 
instilling an energy aware culture in those new pilots, which 
proliferates into the Air Force's major weapons systems and will 
potentially provide exponential savings. This type of savings can be 
seen in the process changes executed at Altus AFB in Oklahoma, which 
instituted scheduling and airspace utilization initiatives in 2013 that 
are providing over $60 million in cost savings on an annual basis.
                       alternative aviation fuel
    The Air Force is also committed to diversifying the types of energy 
and securing the quantities necessary to perform its missions, both for 
near-term benefits and long-term energy resiliency. The ability to use 
alternative fuels in its aircraft provides the Air Force with enhanced 
capabilities by increasing the types of fuels available for use. The 
entire Air Force fleet has been certified to use two alternative 
aviation fuel blends; one of these is generated from traditional 
sources of energy and the other one is generated from bio-based 
materials.
                       environmental stewardship
    While the Air Force strives to prevent or minimize environmental 
degradation from our training activities and operations, we recognize 
that sustaining the world's most capable Air, Space, and Cyber Force 
inevitably results in environmental impact. As a result, we view our 
responsibility to protect human health and the environment as an 
extraordinary duty. The Air Force is subject to the same environmental 
statutes and regulations as any other organization in the country and 
recognizes both its legal and inherent environmental responsibility. 
The Air Force fiscal year 2017 PB request assures our programs comply 
with applicable regulatory requirements but, more significantly, in a 
manner that ensures the ready installations and resilient natural 
infrastructure necessary to support the Air Force mission now and in 
the future.
Environmental Program Funding Details
    Within our environmental programs, the Air Force continues to 
prioritize resources to ensure our defense activities fully comply with 
legal obligations and our natural infrastructure remains resilient to 
support our mission and our communities; restore sites impacted by Air 
Force operations; and continuously improve. The fiscal year 2017 PB 
seeks a total of $842 million for environmental programs. This is $20 
million less than last year due to sustained progress in cleaning up 
contaminated sites and efficiencies gained through centralized program 
management. By centrally managing our environmental programs we can 
continue to fund full compliance with all applicable laws, while 
applying every precious dollar to our highest priorities first. 
Further, our environmental programs are designed to provide 
environmental stewardship to ensure the continued availability of the 
natural infrastructure; the air, land and water necessary to provide 
ready installations and ensure military readiness.
Environmental Quality
    The Air Force's fiscal year 2017 PB request seeks $422.6 million in 
Environmental Quality funding for environmental compliance, 
environmental conservation, and pollution prevention. With this 
request, the Air Force ensures a resilient natural infrastructure and 
funds compliance with environmental laws in order to remain a good 
steward of the environment. We have instituted a standardized and 
centralized requirements development process that prioritizes our 
environmental quality program in a manner that minimizes risk to airmen 
and surrounding communities, the mission and the natural 
infrastructure. This balanced approach ensures the Air Force has ready 
installations with the continued availability of the natural 
infrastructure it needs at its installations and ranges to train and 
operate today and into the future.
    The environmental compliance program focuses on regulatory 
compliance for our air, water and land assets. Examples of compliance 
efforts include more detailed air quality assessments when analyzing 
environmental impacts from Air Force activities; protecting our 
groundwater by improving management of our underground and aboveground 
storage tanks; and properly disposing of wastes to avert contaminating 
our natural infrastructure.
    Efforts in pollution prevention include recycling used oil, 
fluorescent lights and spent solvents, as well as sustaining our 
hazardous materials pharmacies to manage our hazardous materials so 
they don't turn into waste. We continue to make investments in 
minimizing waste and risk to airmen through demonstrating and 
validating new technology such as the robotic laser de-painting process 
on aircraft.
    The Air Force remains committed to a robust environmental 
conservation program. Prior appropriations allowed the Air Force to 
invest in conservation activities on our training ranges, providing 
direct support to mission readiness. The conservation program in fiscal 
year 2017 builds on past efforts to continue habitat and species 
management for 96 threatened and endangered species on 45 Air Force 
installations. This year's budget request also provides for continued 
cooperation and collaboration with other agencies, like the U.S. Fish 
and Wildlife Service, to provide effective natural resources management 
and safeguard military lands from wildfire hazards through coordinated 
planning and incident response, and the application of prescribed burn 
techniques. The fiscal year 2017 budget will further the Air Force's 
implementation of tribal relations policy to ensure that the unique 
trust relationship the U.S. Government shares with tribes continues, 
and to provide opportunities to communicate aspects of the Air Force's 
mission that may affect tribes.
    As trustee for more than 9 million acres of land including forests, 
prairies, deserts, wetlands, and costal habitats, the Air Force is very 
aware of the important role natural resources plays in maintaining our 
mission capability. Sustained military readiness requires continued 
access to this natural infrastructure for the purposes of realistic 
training activities. The Air Force utilizes proactive ecosystem 
management principles and conservation partnerships with other Federal 
and State agencies to minimize or eliminate impacts on the training 
mission. We are challenged by the fact that in many instances, our 
installations have become the last bastion of habitat for certain 
species due to the increased development outside the installation 
boundary. The fiscal year 2017 PB request includes $53.4 million to 
implement the Air Force's conservation strategy, which will ensure that 
all aspects of natural resources management are successfully integrated 
into the Air Force's mission.
    The Air Force remains committed to good environmental stewardship, 
ensuring compliance with legal requirements, mitigating mission 
impacts, reducing risk to our natural infrastructure, and honing our 
environmental management practices to ensure the sustainable management 
of the resources we need to fly, fight, and win now and into the 
future.
Environmental Restoration
    The Air Force fiscal year 2017 PB request seeks $419 million in 
Environmental Restoration funding for cleanup of current installations 
and those closed during previous BRAC rounds. Our focus has been on 
completing investigations and getting remedial actions in place, to 
reduce risk to human health and the environment in a prioritized 
manner. Ultimately, the Air Force seeks to make real property available 
for mission use at our active installations, and to facilitate 
community property transfers and reuse at our closed installations.
    The Air Force has made progress over time in managing this complex 
program area, with more than 13,500 restoration sites at our active and 
closed installations (over 8,200 active and almost 5,300 BRAC). The Air 
Force BRAC restoration program is on-track to achieve, at least, a 
``response complete status'' at 90 percent of its Installation 
Restoration Program (IRP) sites at closed installations by the end of 
fiscal year 2018. Our active installation restoration sites are 
currently projected to achieve the same 90 percent response complete 
level by fiscal year 2020.
    A new topic of focus is Emerging Contaminants (EC). ECs pose 
significant risk management challenges to the Air Force environmental 
program. Regulatory requests for environmental sampling and 
implementation of EC response actions are on the rise.Characterizing 
the extent of Air Force environmental releases of an emerging 
contaminant, assessing the potential risk and impact to human health 
and the environment, and initiating response actions and implementing 
appropriate mitigation measures, drive unforeseen, chemical- and site-
specific environmental liabilities and program costs.
    The Air Force response to releases of ECs from its facilities is a 
deliberate, science-based and data-driven process that is focused on 
protection of human health and the environment, conducted in accordance 
with the Defense Environmental Restoration Program, and consistent with 
the Comprehensive Environmental Response, Compensation, and Liability 
Act (CERCLA).
    The Air Force continues to work with regulators, city and State 
officials and other stakeholders to develop the best solution to an 
emerging problem. For example, for confirmed perfluorinated compounds 
(PFC) releases, the Air Force is determining the extent of 
contamination and taking steps to mitigate any validated human 
exposures with interim actions until cleanup standards and effective 
remedial technologies are available. When groundwater sampling results 
indicate PFC levels exceed the EPA's provisional health advisory for 
drinking water, the Air Force reduces PFC levels with filtration 
technologies or provides an alternate drinking water source. When PFCs 
are detectable, but below the provisional health advisory level, the 
Air Force may conduct well monitoring to track PFC level changes and 
determine if further action is needed.
    While we cannot compromise on the protection of the public, our 
airmen and civilian workforce and their families, neither can we 
endlessly absorb the operational and financial risks of attempting to 
work with a myriad of unregulated contaminants without some level of 
certainty that the cost of controlling exposure will have a 
commensurate public health and operational benefit.
                               conclusion
    The Air Force made hard strategic choices during formulation of 
this budget request. The Air Force attempted to strike the delicate 
balance between a ready force for today with a modern force for 
tomorrow while also recovering from the impacts of sequestration and 
adjusting to budget reductions. Our fiscal year 2017 PB request 
increases funding in MILCON to support COCOM and new weapon system 
requirements, reduces Restoration and Modernization (R&M) and continues 
to address the current mission backlog of deferred infrastructure 
recapitalization from the fiscal year 2013 PB strategic pause. 
Sequestration will halt this recovery. We also must continue the 
dialogue on right-sizing our installations footprint for a smaller, 
more capable force that sets the proper course for enabling the Defense 
Strategy while addressing our most pressing national security issue--
our fiscal environment.
    In spite of fiscal challenges, we remain committed to our 
servicemembers and their families. Privatized housing at our stateside 
installations and continued investment in Government housing at 
overseas locations provide our families with modern homes that improve 
their quality of life now and into the future. We also maintain our 
responsibility to provide dormitory campuses that support the needs of 
our unaccompanied servicemembers.
    Finally, we continue to carefully scrutinize every dollar we spend. 
Our commitment to continued efficiencies, a properly sized force 
structure, and right-sized installations will enable us to ensure 
maximum returns on the Nation's investment in her airmen, who provide 
our trademark, highly valued air power capabilities for the Joint team.

    Senator Kirk. Let me start with the questioning. I will 
recognize myself.
    Missile defense is one of my greatest priorities as chair 
of this subcommittee. I would say that I am favorably looking 
at the expeditionary deployment of Terminal High Altitude Area 
Defense (THAAD) to Guam as a permanent funding item that we 
would look at.
    I would say to Mr. Potochney, could you tell me more about 
the $155 million that you guys are planning for the long-range 
discrimination radar in Clear, Alaska.
    Mr. Potochney. Thank you, sir.
    It is in our budget. It is important. We are strongly 
behind it. We hope you all are. We want the money appropriated 
this year, so that we can execute it holistically. I think it 
is a key element of our approach to missile defense.
    Senator Kirk. Mr. Tester.
    Senator Tester. I will yield to Senator Udall.
    Senator Udall. Okay, Thank you, Jon. I appreciate your 
courtesy.
    Thank you both, Chairman Kirk and Ranking Member Tester.
    As we all know, the military's ability to meet future 
global challenges is directly tied to its facilities. That is 
what it uses to train, to test, to evaluate, and to carry out 
its mission. So when I look at my home State of New Mexico, I 
see an array of military installations that provide unique 
capabilities to the Department of Defense and our mission on 
the 21st century battlefield.
    At Kirtland, we have the Air Force research lab and the 
nuclear weapons center; at Cannon, the 27th Special Operations 
group; Holloman has the high-speed test track; and the White 
Sands Missile Range, otherwise known as WSMR, has 3,200 square 
miles of unique and pristine testing and evaluation territory 
that is used across DoD and other agencies.
    WSMR is capable of testing next-generation technologies. 
These will emerge from what DoD is calling the third offset, 
the focus on technological innovation. Combined, all of New 
Mexico's bases help build and sustain a 21st century military.
    Ms. Hammack, I will direct this question to you. What 
concerns me is that years of reduced MILCON budgets and 
deferred maintenance have resulted in facilities and 
infrastructure that may not be adequate or may not be advanced 
enough to test and evaluate new technologies. For example, the 
White Sands Missile Range sustainment, restoration, and 
modernization budget is funded at only 69 percent. But WSMR has 
repairs and maintenance backlogs of over $220 million.
    Do you agree that the White Sands Missile Range offers 
unmatched testing and evaluation capabilities that will help 
develop the next generation weapons systems of third offsets 
such as directed energy?

                        WSMR/SUSTAINMENT FUNDING

    Ms. Hammack. The answer is yes. WSMR offers unmatched 
testing capabilities, which is used by all services. You are 
absolutely right. Sustainment funding is lagging. That is the 
effect to sequestration.
    So not only does WSMR have a backlog, but across the 
Department of Defense, across the Army, in particular, we have 
a backlog of sustainment that is well over $7 billion today.
    So it is one of the significant risks that we are taking in 
our installation budgets. We are doing our best to ensure, 
though, that we do not fail the mission. So the money that we 
have is focused on critical mission requirements and life, 
health, safety.
    Senator Udall. Could you discuss the Army's plan to address 
WSMR's maintenance backlog and the budget shortfalls that face 
us?
    Ms. Hammack. Unfortunately, right now, we have no plan to 
handle the maintenance backlog, because we don't have money to 
handle the maintenance backlog. That is why we are addressing 
the worst first.
    But the challenge is, as we continue to be unfunded due to 
budgeting constraints, the backlog will increase. 
Unfortunately, that means that facilities will fail faster.
    Right now, in the Army, 20 percent of our infrastructure 
that is over 52,000 buildings are in poor or failing condition 
due to the underfunding in our installation accounts.
    Senator Udall. Mr. Potochney, as you know, a QF-4 unmanned 
aerial vehicle crashed at White Sands National Monument over 2 
years ago. That was in February 2014. But a 4-mile stretch of 
the monument remains closed today due to serious concerns about 
contamination in the soil, including access to two popular 
family-friendly trails.
    There have been some frustrating bureaucratic issues 
preventing cleanup related to interagency funding, but we are 
not aware of any specific legal obstacle to DoD funding this 
cleanup.
    Will the DoD pay for the cleanup? And can you commit to a 
timeframe to get it done?
    Mr. Potochney. Sir, thank you for that question.
    I am frustrated as well, but we are on a path right now to 
reconcile the bureaucratic delay that we have had.
    The delay resulted from the fact that it was a Navy 
mission, an Air Force plane, on a facility handled by the Army, 
and the Army had the agreement with the Park Service for 
cleanup. So we had to work through that.
    I'm not happy at all with the fact that it has taken us 
this long. I can assure you we are watching it very carefully 
now, and I cannot commit to a timeline to clean it up, but I do 
not think it will be too long, and it will be done 
expeditiously.
    The reason why I say I can't commit to a timeline is I 
don't know how long it will take us to get the last contract in 
place and how long that contractor will take. But we can take 
that for the record, as soon as we have that plan in place.
    [The information follows:]
                         information memorandum
Subject: Timeline for Army Cleanup at White Sands Missile Range (WSMR)

Cleanup:  Contract award June 2016. Expected completion mid-January 
2017, with anticipated regulatory approval by July 2017.

  --WSMR Commanding General and White Sands National Monument (WSNM) 
        Superintendent agree that the existing 2-year old site 
        assessment requires a refresh and re-analysis of the crash 
        site.
    --The crash site will be re-assessed to determine extent of 
            contamination
    --Once the new assessment is completed, personnel will excavate and 
            properly dispose of the contaminated soil from the areas 
            showing the highest concentration of jet fuel
    --Personnel will analyze soil samples to verify cleanup levels
    --The Army plans to complete the cleanup of the White Sands Missile 
            Range (WSMR) site by mid-January 2017, with anticipated 
            regulatory approval by July 2017
    --Completion of cleanup could require additional time if the 
            contamination proves to be more extensive or has 
            potentially spread

  --Major Milestones are as follows:
    --Contract award--June 2016
    --Work Plan and Site Assessment complete--mid-October 2016
    --Cleanup Action complete--mid-January 2017
    --Regulatory review & approval--complete July 2017

  --WSMR has the estimated $500,000 funds on hand to contract for 
        remediation and will follow the existing Memorandum of 
        Understanding (MOU) to be subsequently reimbursed by the Navy.
    --U.S. Army Corps of Engineers (Tulsa) will award the remediation 
            contract and use a qualified contractor

    Senator Udall. Yes. That's good to hear, and I think it's 
important we move forward, so we make sure that we have a good, 
long-term relationship between the Air Force and the White 
Sand's National Monument, which worked very closely together to 
achieve, as you know, a lot of these national security 
objectives.
    Mr. Potochney. Yes, sir. And if I could just add one thing? 
I'm using it as an illustrative test case, if you will, of how 
we can do a better job at an interagency decisionmaking, and we 
will do that.
    Senator Udall. Thank you.
    Mr. Potochney. Thank you.
    Senator Kirk. Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman.
    Secretary Iselin, first, let me tell you that I'm very 
pleased to see that the President's budget request includes 
funding for three important projects at the Portsmouth Naval 
Shipyard in Kittery, Maine.
    This shipyard is considered the gold standard. It's the 
most productive of our four public shipyards. I can say that 
not only because it's true but there are no other members here 
representing the other three who could contradict that 
statement. But it is, indeed, the case, and we're very proud of 
that.
    I particularly am pleased to see that funding of $27 
million has been requested to replace the medical and dental 
clinic. That facility is over 100 years old, and it does not 
meet standards for safety, for accessibility. And it does not 
allow for a smooth and efficient delivery of services, as you 
might imagine, given the age of the building.
    So I just want to go on record in support of those three 
projects, and thank you for including them and recognizing 
their importance.
    I do want to bring up a longer range issue that is of 
concern to me. We all know that fleet readiness is a key 
component of our Navy's capability to project power and deploy 
assets. Our Nation's four public shipyards ensure this 
readiness as they restore, repair, and modernize ships and 
submarines at dry docks.
    According to NAVSEA and the Navy Shore Mission Integration 
Group, however, naval shipyard dry dock capacity is inadequate 
to service future fleet maintenance needs. And my concern is, 
without this capacity, the readiness of our ships and 
submarines is placed at risk, and we will be left vulnerable, 
particularly as we look at what China and Russia are doing.
    So to respond to these threats, we must invest in dry 
docks, a critical component of fleet maintenance.
    The necessary levels of investment in those dry docks is 
currently estimated at $2 billion divided among the four public 
naval shipyards.
    Can you give us some concept of how the Navy plans to fund 
these future requirements and ensure that dry docks are 
available and properly maintained, and able to keep our fleet 
operationally ready and strong?
    Mr. Iselin. Yes, ma'am.
    First, thanks for your compliment on supporting the funding 
for those facilities at Portsmouth. I was stationed there over 
30 years ago and have fondness in my heart. I had a broken 
thumb set at that medical facility, and it was old then and 
it's older now. So we're happy to be able to make those 
investments.
    As to your broader question about dry docks and really 
shipyard facilities writ large, we recognize those are critical 
assets.
    There's a finite number of those around the Navy, and we 
pay close attention in our fiscal year 2017 request. Although 
it's not overtly visible to you, we have over $70 million 
targeted for repair projects, six repair projects at the dry 
docks, some at each of those four public shipyards.
    To the bigger question about how we are going to get after 
the $2 billion backlog, know that we prioritize shipyards and 
their maintenance.
    During the last couple of years, particularly during the 
days when we were at furlough, the Navy leaders recognized very 
directly the importance of ship repair capability. We had 
weight handlers who operated cranes at a shipyard unable to 
come to work because of a furlough, and we ended up with four 
star senior leaders directly managing people's days on and days 
off to make sure that we met the ship repair capability, 
because that has direct implications on operational readiness.
    So we know where our challenges are. As I mentioned, in my 
opening remarks, we have a very good system of understanding 
what our critical facilities are. Dry docks clearly are at the 
top of the list, and we know the condition of them. And the 
challenge will be to prioritize those facilities along with 
everything else as we spend the dollars that we have.
    I mentioned senior leader's awareness. I've been involved 
in this business for a long time, and it's an unprecedented 
level of attention by the Secretary of the Navy, the Chief of 
Naval Operations (CNO), and the Commandant on the challenges 
that we're describing here today. So I feel comfortable that 
the senior leaders are paying close attention on where to make 
the best investments that we can.
    Senator Collins. Thank you very much for that thorough 
response, and please know that you are welcome back to Kittery, 
to the shipyard, at any time.
    Mr. Iselin. Yes, I was up there last year, and I was really 
pleased to see how far it's come over the last couple of 
decades, and the pride that the workforce has in what they do.
    Senator Collins. That pride is really evident, and I'm very 
proud of the workers there. Thank you so much.
    Senator Kirk. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Welcome, to all of our witnesses.
    Mr. Iselin, I'm going to stay with you. I have the same 
pride that Senator Collins does in representing the Navy's 
first submarine base in New London, Connecticut, and I can say 
the finest base, so long as Senator Schatz is not here.
    And Senator Wicker and I got the real honor about 2 
weekends ago to actually spend 24 hours on board the USS 
Hartford as it conducted operations in and around the Arctic 
Circle. And of course, as always, I was incredibly impressed 
with their skill and professionalism.
    But as you are aware, we have committed through the 
Appropriations Committee process along with the Navy to 
continuing the two Virginia-class submarines, build a year 
while simultaneously integrating the new Virginia payload 
module into the Block V submarines starting in 2019. And as you 
also know, these new Virginia-class submarines are going to be 
a lot bigger than the existing Virginia-classes and the Los 
Angeles class submarines.
    And so I wanted to ask you about how our military 
construction budget is going to keep pace with this increase in 
the number and the size of Virginia-class submarines.
    Specifically, in New London, Pier 32 needs to be upgraded 
in order to meet this new requirement starting in 2019. And I'm 
hoping that you can maybe speak even more generally to the 
necessary upgrades that are being planned and the needed 
military construction projects that are in the budget over the 
next few years to make sure that we have the capacity to deal 
with this increase in both volume of production but also size 
of the submarines.
    Mr. Iselin. Yes, sir. Thanks for your question.
    And I was fortunate to make a visit up to Sub Base New 
London last year as well and got a great tour from the 
installation commander and the staff there who are responsible 
to look after those very situations.
    And I agree with you. We have challenges with the condition 
of that pier, and that will factor into our future investment 
plans. Certainly, a pier to support nuclear submarines is high-
priority item.
    And as it relates to the Virginia payload module and the 
changes in the size and the nature of submarines as a result, 
that will factor in. The installation team has a long-range 
plan to make adjustments to the infrastructure to accept that 
new platform, and that will factor into future planning 
initiatives.
    Senator Murphy. We look forward to working with you to make 
sure that that plan stays on track.
    The second question for you as well, I certainly understand 
that you're going to support the broader request from the 
Department for a BRAC. But I wanted to ask you as to the Navy's 
very specific disposition. The immediate past CNO Admiral 
Greenert said in earlier testimony very clearly that the Navy 
didn't believe that it had a need for base closures or for a 
BRAC process.
    He said, ``I'm very satisfied with our lay down of bases. 
People ask me do you see a great need for BRAC, I say, no, I 
don't.''
    And so I understand you'd be supporting the broader 
request, but has the Navy's disposition changed in terms of its 
need for a base closure process?
    Mr. Iselin. Thanks for that question and you assume 
correctly. We do support the Department's request for BRAC. I 
would say, on a high level, we have much less excess 
infrastructure capacity than the Army or the Air Force.
    We played very aggressively in prior rounds of BRAC to try 
to get to the right size. We've had the benefit, unlike the 
other services, of having less fluctuation in our force 
structure over time, including the projected force structure.
    And so we look forward to completing the required capacity 
analysis, and if a BRAC is authorized, we'll, of course, 
participate in that process. But I think our challenge is less 
severe than the Army or the Air Force.
    Senator Murphy. Okay.
    Thank you very much, Mr. Chairman.
    Senator Kirk. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Ms. Hammack, tell us about the excess infrastructure in the 
Army.
    Ms. Hammack. Thank you for that question.
    Currently, the Army has approximately 18 percent excess 
infrastructure. As force structure continues to decline, we 
will have 21 percent excess infrastructure when we reach a 
total force of 980,000. That amounts to over 170 million square 
feet of unutilized or underutilized facilities.
    As we've reduced our force, quite often, we see buildings 
that are partially occupied. One of the things a BRAC offers us 
is the ability to consolidate into our best facilities and 
consolidate missions, and that's why we are asking for BRAC 
authority.
    The previous rounds have consolidated about 5 percent of 
our infrastructure, and we anticipate that this next round of 
BRAC would do the same: Consolidate about 5 percent of our 
existing 21-percent excess, so that we would retain some 
capacity for surge or other unanticipated requirements.
    Senator Boozman. For the panel, if Congress were to grant 
you the ability to go forward with BRAC, can you tell us what 
you learned from the last BRAC that we did, some of the things 
that we should have done better?
    Mr. Potochney. I'll start, if I could.
    Senator Boozman. Yes, sir, if you would.
    Mr. Potochney. Congress was rightly concerned about the 
cost growth from the last round. We had anticipated around $22 
billion in cost, and we came in at $35 billion. Some of that 
was attributable to fact-of-life things. We had a Katrina 
effect that put our construction materials through the roof. 
Environmental cleanup is an issue that we have to handle 
carefully in BRAC, those kinds of things.
    But, we, frankly, used the last BRAC round as a 
recapitalization engine and as a transformation tool, so that 
we weren't just skinning down excess capacity in place. We were 
actually looking more broadly. And that's expensive, but it 
does position us for the future.
    What we're saying to you all now is that we're looking at 
the next round being an excess capacity round to reduce our 
costs. So that is, if you will, to use your words, a lesson 
that we've learned.
    I would argue, though, that the transformation that was 
accomplished in the last round was absolutely worthwhile, at 
least in my judgment and others as well. But as far as a tool 
to reduce our infrastructure and save money directly, excess 
capacity is the way to go, and that's what we're looking at 
now.
    Senator Boozman. Ms. Hammack.
    Ms. Hammack. Let me comment on that.
    One of the things that the Army learned is that the Reserve 
component has an opportunity to participate in BRAC, which they 
did for the first time in 2005: They closed 387 facilities, 
consolidating into 125 new readiness centers, which were shared 
by Guard, Reserve, and, quite often, other Federal agencies 
like the Fish and Wildlife Service or Department of the 
Interior Bureau of Land Management.
    So the National Guard found that it increased their 
capabilities and reduced their costs, and, just like the Active 
Duty and the industrial base, found that there are significant 
opportunities for efficiencies to save money and prepare us for 
the future.
    Senator Boozman. Very good.

                       AIR FORCE--2005 BRAC ROUND

    Ms. Ballentine. I would like to add that for the Air Force 
in the 2005 BRAC round, it really was a good money-saving 
exercise, as well as a good transformational exercise. The 2005 
round cost the Air Force about $3.7 billion, and we're saving 
$1 billion a year. That's a pretty good return from the 
business perspective.

                 EUROPEAN INFRASTRUCTURE CONSOLIDATION

    I would also encourage all of us to look at our recent 
European infrastructure consolidation as a strong process. We 
would seek to replicate many of the elements of that process in 
the next round.
    It was very much focused on savings for the Air Force. 
We're doing nine actions in Europe, and we'll save considerable 
money with zero loss of operational capability. It really was 
designed to find ways to be as or more operationally capable 
from lower cost, fewer installations.
    So I would encourage us to look at both, the most recent as 
well as prior, to get the best lessons learned.
    Thank you for the question, sir.
    Senator Boozman. Thank you.
    Mr. Iselin. Sir, I don't have anything additional to add. I 
think they've covered it.
    Senator Boozman. Good. Well, that worked out perfectly or 
the chairman would yell at me, because my time is up. So thank 
you all very much.
    Thank you, Mr. Chairman.
    Senator Kirk. Senator Murkowski.
    Senator Murkowski. Thank you, Chairman. I appreciate you 
letting me jump in here.
    I would like to start my questions and direct them to you, 
Assistant Secretary Ballentine.
    As you know, we had a pretty good start of the week in 
Alaska, particularly in Fairbanks, with the announcement of the 
record of decision (ROD) assigning the two squadrons of F-35 
aircraft to Eielson Air Force Base. With a signature of that 
ROD, we are really very excited for a host of different 
reasons. This is the first F-35A beddown in the crucial Pacific 
area of responsibility (AOR).
    The administration has requested $295.6 million in fiscal 
year 2017 to construct seven different projects there at 
Eielson.
    Can you please speak to the importance of this week's 
decision and explain why it is essential that this subcommittee 
fully appropriate the administration's request in the 2017 bill 
and how any possible delay in appropriations could adversely 
affect the beddown of these two squadrons there at Eielson?

                   F-35A BEDDOWN--2017 MILCON PROGRAM

    Ms. Ballentine. Thank you, Senator.
    This is a very short, straightforward answer. It's 
absolutely critical that the full fiscal year 2017 MILCON 
program that we submitted is funded this year.
    With the current timing of the beddown of the first 
aircraft for both Squadron 1 and Squadron 2, if we do not fully 
fund this MILCON program, we will be late to need.
    And in an environment like Alaska with very harsh winter 
conditions, it's very difficult for us to create mitigations if 
we don't have the proper facilities.
    In fact, as you also know, we announced a swap of timing 
for the first squadron with Burlington, Vermont, which in many 
ways helps to solve some problems that we had previously where 
we would have been late to need.
    So it's absolutely critical with this current timing that 
we get all of this program funded for both squadrons.
    Senator Murkowski. And also, we had discussed the reality 
that we have a limited construction season in Alaska. You just 
can't be doing all this outside work 365 days out of the year. 
So the timing on this is critical.
    Ms. Ballentine. Yes, ma'am.
    Senator Murkowski. Thank you. I appreciate that and would 
certainly encourage the subcommittee to take very seriously the 
Assistant Secretary's words here.
    Finally, to Assistant Secretary Hammack, this relates to 
the $47 million for a hangar to house the Gray Eagle unmanned 
aerial vehicles at Fort Wainwright. Anything you would like to 
say in support of this request? And, again, in terms of the 
timing, a very important asset there in the interior as well.
    Ms. Hammack. Absolutely, and thank you for that question.
    I echo Secretary Ballentine. It's critical that we get the 
money. The vehicles, some are already there in adequate 
facilities. We need the money so that we can progress within 
the planned timeframe so that we have the ability to both work 
on the equipment, maintain, repair, and do the appropriate 
training that Alaska affords to our soldiers.
    Senator Murkowski. Thank you. I appreciate that.
    And I understand, Mr. Chairman, that you had already 
directed a question regarding the Long-Range Discrimination 
Radar, the significance of that, why it's essential that we 
provide for the administration's request on that. So I 
appreciate that, and I also appreciate your commitment to that 
at Clear.
    My final comment would be not directed to any of you 
necessarily at the table, but I know that General Halverson is 
with us today, and I know that you have been invited to join us 
up in Fairbanks perhaps for the military appreciation event 
coming soon, and I know that that is something that is under 
consideration. So I saw you in the audience there and just take 
the time to do that.
    Thank you all for your commitment to ensuring that as we 
advance these priorities around the Nation, that we do so in a 
timely and efficient manner.
    Thank you, Mr. Chairman.
    Senator Kirk. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.
    High-quality installations like the Wisconsin Air National 
Guard Truax Field, which is home to the 115th Fighter Wing, 
rely on adequate capital investments to ensure readiness and 
support mission success.
    The 115th is under consideration to be one of the new 
National Guard homes of the F-35 with aircraft fielding in 
2022. I expect it to be a very strong competitor for a number 
of strategic, geographic, and economic reasons.
    So I'm pleased that this year's budget includes a fiscal 
year 2019 project at Truax to improve the condition of the 
facilities used by the 115th medical group. It's a subunit, 
obviously, of the 115th. This project is the number one 
priority of the Wisconsin National Guard and will support the 
training of medical professionals assigned to that unit, the 
medical readiness evaluation of military members assigned, and 
a domestic operations capability.
    Secretary Ballentine, projects in the Future Year Defense 
Program (FYDP) sometimes are moved forward and sometimes are 
pushed back, as the Department builds it budget request.
    Considering that by the time this fiscal year 2019 project 
breaks ground, there will not have been an Air Force MILCON 
project in Wisconsin for a whole decade, I strongly believe 
that this project must not be delayed.
    Can I have your commitment on that?
    Ms. Ballentine. Thank you, ma'am.
    We do our best to prioritize our mission-critical, worst-
first facilities for our existing facilities. Our existing 
facilities MILCON budgets are highly, highly strained. Of the 
500 top priorities submitted by our major command commanders 
this year, we only were able to fund 30.
    So it's a very difficult budget environment for those 
existing facilities, and I think we've heard that a lot today.
    So we certainly do hope that everything that's in the 
current program will stay in the program, and we will continue 
to prioritize mission critical worst-first.
    I also thought I would just touch on the timing for the Ops 
5, 6, and 7 F-35 beddown strategic basing process, which you 
mentioned. We will be announcing later this month the 
enterprise definition as well as the criteria, and then we'll 
go into the scoring period of time.

                             MILCON BACKLOG

    This summer, we hope to approve the candidates and then 
begin site surveys and hope to be able to announce a preferred 
and reasonable alternative this fall.
    Senator Baldwin. Thank you.
    Secretary Hammack, your testimony notes that the fiscal 
year 2017 request for the Army National Guard is a small step 
toward addressing the Guard's facility challenges, and I 
appreciate your candid assessment of the request and share your 
concerns with the critical facility shortfalls in the Guard's 
readiness center portfolio.
    The Wisconsin Army National Guard has a 40-percent facility 
shortfall that directly and significantly affects readiness, 
recruiting, and equipment management.
    My question to you is how can we take bigger steps toward 
fixing the problem, particularly in this tight budget 
environment? And specifically, how can the Army support the 
funding levels called for by the readiness center 
transformation master plan?
    Ms. Hammack. I would love to say that there is a solution 
but the best solution is to lift sequestration. With the budget 
constraints we're facing, we're having to balance readiness and 
the missions that are asked of the Army against installations. 
When we look at manning the Army, training the Army, and 
equipping the Army, there is very little left for supporting 
installations and supporting readiness centers.
    So we do our best with the limited funding we have, but we 
have a tremendous backlog in military construction requests, 
just like the Air Force. We have a tremendous backlog in 
maintenance requirements, restoration, and modernization 
requirements. It amounts into the tens of billions of dollars 
currently, and is only going to grow with time.
    So we are taking significant risk in installations and 
creating a bill for the future by the underfunding that we are 
forced to live with in this restricted budget environment.
    Senator Baldwin. I know my time is about to run out. Let me 
just note that as a total force training center, Wisconsin's 
Fort McCoy plays a crucial role in the training and 
mobilization of our Armed Forces, ensuring that service members 
are fully prepared to respond to any contingency. And as such, 
it's critical that the Army continues to invest in Fort McCoy, 
maintaining the installation's ability to support the readiness 
and quality of life of our soldiers and their families.
    I'm pleased that the budget does include three projects for 
Wisconsin's Fort McCoy, including a fiscal year 2017 project to 
construct a new dining facility to support mobilizing and 
training soldiers. I will ask you to submit any extra comments 
for the record as I run out of time.

                               FORT MCCOY

    But, Secretary Hammack, if you can expound in the future 
about how this budget reflects a strong recognition by the Army 
that Fort McCoy is essential, not only to the Reserves, but to 
the total force.
    And I thank the chairman.
    Ms. Hammack. Just a brief reply on that, Senator Baldwin. 
Fort McCoy is a strategic training asset for the total force. 
When I was last there, we had Active Duty from Fort Drum 
training with Guard and Reserve together, training in a 
realistic environment, and training the way we fight, and that 
is a great thing. The three projects that were included in our 
fiscal year 2017 budget request, together with the 17 projects 
(totaling $223 million) provided over the last 10 years, are a 
clear testament to the Army's recognition of Fort McCoy as an 
essential training platform for the total force.
    Senator Kirk. Senator Cassidy.
    Senator Cassidy. Thank you, Mr. Chair.
    Assistant Secretary Ballentine, we spoke yesterday. Thank 
you for coming by. Reflecting on our conversation, you 
mentioned the need to buy back some force, that the force 
reductions have been such that now you all need to bring folks 
back in. Knowing that you're in a rock and a hard place, 
nonetheless, I'll emphasize the quality-of-life issues that you 
said in this budget are somewhat deemphasized. If you're going 
to buy back folks in, it just seems as if they would want to 
have daycare or such like that, if they're going to rejoin, 
knowing that you know that, but just to make that point.
    Ms. Hammack, knowing, again, that you all are having to 
prioritize that which is important, and as you might guess, 
being from Louisiana, I'm very sensitive to the Fort Polk 
issue, that combat training center. It's fair to say that as 
you all prioritize, you'll recognize the importance of combat 
training centers and the need to modernize the joint readiness 
training centers such as at Fort Polk?
    Ms. Hammack. Yes, sir, and we do prioritize. Our highest 
value goes to training land, airspace, and testing ranges, and 
Fort Polk is a great training environment. But we do have a 
backlog in construction, and so that's one of the challenges 
finding enough money to suit all of our requirements.
    We are going to be investing there, but it is out in the 
future years.
    Senator Cassidy. Combat readiness though is almost by 
definition--it seems to be the number one priority of the Army, 
to be ready for combat. So that's why I just advocate, not just 
as a fellow from Louisiana, but as someone who wants to see our 
troops ready, less likely to be harmed, more likely to affect 
their mission, to have that at the highest priority.
    You also, in your testimony, speak at length regarding the 
Army's green energy initiative. And you suggest but don't 
outright state that the investment has paid for itself. Has it? 
Because it seems as if it's one thing to say that the cost of 
electricity from a renewable is cheaper than that which you can 
buy off the grid, but it's another to say that once you factor 
in the cost of the installation of the infrastructure and the 
maintenance, that it is still cost effective. So, thoughts?

                            RENEWABLE ENERGY

    Ms. Hammack. Absolutely, Senator.
    That is why we're not investing Army money in it. The 
private sector is designing, building, owning, operating, and 
then delivering us the energy at a lower cost than would 
otherwise be available.
    Senator Cassidy. What I find interesting though is that 
you're accomplishing that which others have not, unless they 
are using the other Federal subsidies that go with green 
energy. Am I to presume that this energy being received is 
taking advantage of Federal tax credits? Because otherwise, 
green energy typically is not cheaper all in than is 
conventional, if you will, electricity.
    Ms. Hammack. Many of them are taking advantage of Federal 
tax credits, but we have seen the cost of renewable energy 
decrease whether it's wind, solar, or biomass, it has decreased 
in all areas. That's why it's a good business decision to have 
the private sector invest money, because they have to be able 
to make money out of it, yet deliver us energy at or lower than 
current energy costs.
    Senator Cassidy. I see that. But at all-in cost to the 
Federal taxpayer. We also have to consider the cost of the 
production tax credits or whatever. So granted, it offloads off 
you, but it's still on the Federal budget.
    I just say that not to accuse or to challenge, but just to 
understand. In a sense, this is a stackable payment.
    Okay. I get that.
    I yield back. Thank you.
    Senator Kirk. Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    With the exception of our longstanding commitments to the 
Republic of Korea and Japan, we've largely had a ``places, not 
bases'' defense posture in the Asia Pacific. But our footprint 
is changing, and we have marines in Darwin for half of the year 
as part of a broader realignment in the region. We also have a 
new, enhanced defense cooperation agreement with the 
Philippines where we look to bring rotational forces.
    And while this doesn't mean new bases, it does mean new 
infrastructure to store equipment and support training.
    So my question for Secretaries Hammack, Iselin, and 
Ballentine is, how do you see the overseas MILCON evolving in 
light of increasing requirements and increasing partnerships in 
the Asia Pacific region, in addition to what's happening in 
Korea and Japan?

                              COST SHARING

    And we'll start with Secretary Hammack.
    Ms. Hammack. Thank you, Senator Schatz, for that question.
    One of the things we are evaluating is working very closely 
with our allies and partners over there to leverage their 
resources and their capabilities and their bases for storage, 
so that we can reduce the cost of partnership and joint 
training exercises. A lot of that is under development right 
now.
    Senator Schatz. Are you talking about actual cost-sharing 
or are you talking about sort of leveraging assets that they 
already have in terms of physical plant and land?
    Ms. Hammack. All of the above.
    Senator Schatz. Okay.
    Ms. Hammack. That's the Army strategy.
    Mr. Iselin. Senator, thank you for that question.
    I can't speak specifically to the Philippines because I'm 
not yet read up on those issues. I know that we've recently had 
an agreement to go to five locations there. I think the 
predominance were either Air Force or Army support.
    But in Darwin, there's ongoing intergovernmental 
discussions about cost-share arrangements, and those aren't 
completed yet. So until those are done, I can't comment on 
specifics.
    Certainly, it's in our interests to ensure that there's a 
fair cost-sharing agreement in place, such that we're not 
carrying an undue burden.
    Ms. Ballentine. Senator, the first leg to the Air Force's 
three-legged military construction stool is to ensure that we 
are supporting the combatant commanders' (COCOM) military 
construction requests. And this year, the COCOM support in our 
MILCON budget is about $293 million, $131 million of that is 
for Pacific Command (PACOM) projects. And when we look across 
the FYDP, there are 19 projects in the FYDP to the order of 
$566 million.
    The shift to the Pacific is important to our Nation. It 
certainly is important to the Air Force and is reflected in our 
budget.
    Senator Schatz. Thank you.
    And, Mr. Potochney, where are we with cost-sharing 
arrangements, given these new enterprises?
    Mr. Potochney. Some of them are in negotiation, as you 
heard, in Australia. But I would highlight what we're doing in 
Guam. It's almost a $9 billion effort. The Japanese are going 
to contribute about a third of that, as well as building the 
Futenma replacement facility, which is completely at their 
expense.
    So there is a fair amount of participation here with our 
allies.
    Senator Schatz. Essentially, the Department expects cost-
sharing in some form or fashion wherever we are, whether it's a 
base or rotational force. Is that fair to say?
    Mr. Potochney. Yes.
    Senator Schatz. Okay.
    Mr. Potochney. Subject to negotiations.
    Senator Schatz. Sure. I understand it's all negotiated. 
Some of it is already done, and some of it is pending, and some 
of it is in the future.
    Mr. Potochney. Right.
    Senator Schatz. I wanted to talk about the area cost 
factor. In Hawaii, it costs more than twice what it does to 
construct a military facility in most places than on the 
mainland. And I often hear my local commanders say that the 
area cost factor makes it more difficult for certain projects 
to compete in the budget process.
    Obviously, mission essential projects are going to compete 
reasonably well. But I worry that others, such as quality-of-
life and infrastructure improvement projects are getting pushed 
to the right or cut entirely.
    Mr. Potochney, what guidance has the Department given 
military services about weighing area cost factors when 
determining which MILCON projects should be included in their 
budget requests?
    Mr. Potochney. It is what it is. If it costs us $120 to 
build something in Hawaii that might cost $100 on the mainland 
but we need it, it competes for the investment dollars that we 
have.
    Senator Schatz. Right. If it is absolutely mission-
critical, I have no doubt that we get it, because that's 
essential. The question becomes if you're talking about the $3 
million cap in sustainment, restoration, and modernization 
(SRM), if you're talking about something that is not absolutely 
mission critical, I fear that places like Alaska, places like 
Hawaii, get harmed in that process because things get pushed to 
the right.
    Is that not a concern I should have?
    Mr. Potochney. I think that from what I've seen, based on 
my experience, is it's worst first. So if we need something, 
the need competes, and then the resources compete as well. So 
there is no policy that we put out saying, for instance, let's 
say with one area, the cost factor is twice as much as somebody 
else, they should only get half the projects that they need.
    However, the fact is, if it's more expensive to build 
something somewhere, it's tougher to allocate resources to do 
that. There's nothing anybody can do about that.
    But I think, though, that we do have, at least in my view, 
a fair, equitable, worst-first process.
    Senator Schatz. Thank you.
    Senator Kirk. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman. I'd like to thank 
you and the ranking member for calling this hearing today. I 
appreciate it.
    And to all of our witnesses, thank you for being here, and 
thank you for the good work you do.
    My questions are for Assistant Secretary Ballentine. Thanks 
for being here and, again, for our conversations that we've had 
on some of these issues previous to this hearing.
    But my first question goes to acquisition of helicopters 
for the missile fields, the three bases that have missile 
fields, Minot, Malmstrom, and F.E. Warren. Our airmen and -
women are still flying Huey helicopters vintage 1969.
    They're doing an amazing job, but we need new helicopters. 
We have the authorization. We have the funding. Now Air Force 
is working through the process of getting them.
    We hope Air Force will piggyback on an Army existing 
contract, which went through the bid process, so that we can 
get Blackhawks by 2018 versus 2020 or 2021, if they have to 
start the whole bidding process over again separately.
    What we think Air Force may do is bifurcate that and, at 
least for the missile fields, go ahead and work with Army. And 
then they can go ahead through a bid process for the other 
helicopters, and that would help meet our need.
    But it would necessitate some MILCON, probably in 2017, to 
house the Blackhawks, because the existing facilities aren't 
large enough.
    Now Senator Tester, being really sharp and on the ball, is 
ahead of the rest of us, so I think Malmstrom is starting in 
2017 or they have made arrangements. But certainly for Minot 
and F.E. Warren, we would need some help there.
    So I'm asking what you think the prospects might be to do 
that.

                        UH-1N REPLACEMENT MILCON

    Ms. Ballentine. Thank you, Senator. I would say that you're 
correct, that the current MILCON program to support the 
recapitalization of the helicopter is based on our current 
strategy for acquisition. If that strategy were to change, if 
the Secretary were to change her strategy for acquisition and 
move the acquisition to the left in any way, we would need to 
relook at the out-year military construction programs and/or 
find mitigations for the in-between time when the helicopters 
arrive and when the facilities would be prepared.
    Senator Hoeven. Right. We'll know here pretty soon. I'm 
hopeful, again, working with Senator Tester and others, we get 
this done. It's important, I think, for our security police out 
there.
    So we'll know soon, and then we'll come back to you and 
just ask that you work with us on it. We'll obviously try to 
help make it happen.
    Ms. Ballentine. Yes, sir, of course. Thank you.
    Senator Hoeven. The next question really goes to the KC-46 
basing decision. It'd be Main Operating Base 4. I anticipate 
you are starting that process.
    Could you tell me about the timeline and anything you can 
about the process you'll be going through for that basing 
decision?

    KC-46 STRATEGIC BASING PROCESS--MAIN OPERATING BASE FOUR BEDDOWN

    Ms. Ballentine. Yes, sir.
    So in January of this year, we announced the enterprise 
definition and the criteria for Main Operating Base 4 beddown 
of the KC-46. The criteria are the same as prior rounds.
    We expect in the spring we will have the candidates 
approved. We are going through the scoring process of the 
enterprise currently as we speak. And we expect, in the next 
couple of months, we will have the candidates identified for 
site visits.
    Once those site visits are complete, we would anticipate 
that this coming winter, the winter of 2016-2017, the Secretary 
will be able to make a preferred and reasonable alternatives 
decision.
    Then, of course, we need to go through the National 
Environmental Policy Act (NEPA) process, which puts us into the 
winter of 2017-2018 for a final basing decision, and we are on 
track for a spring 2020 beddown of the first aircraft arrival.
    Senator Hoeven. So you were ready for that one. Thank you. 
I was trying to make notes. Usually, I keep up really well, but 
that was a great answer. I appreciate it, and I appreciate you 
moving forward the way you are. That's good.
    Along the same lines, my next question relates to remotely 
piloted aircraft (RPA), and I understand now you're looking at 
some basing decisions for RPA. And basically, the same 
question. And then also, what aircraft would you likely be 
considering? And then the same question as far as timeline, 
basing decision, and so forth.

                            RPA WING BEDDOWN

    Ms. Ballentine. Sure, thank you.
    So slightly different timeline for the beddown of the new 
RPA wing.
    As you know, the Air Combat Commander General Carlisle, 
over the course of the last year, recently did a Culture and 
Process Improvement study of the MQ-1 and MQ-9 programs, and he 
recommended a number of changes, including the standup of a new 
wing, which, of course, triggered a strategic basing process. 
So let me just walk through the timeline, just like I did for 
KC-46.
    We intend, in the next couple of weeks here, before the 
spring is out, to be able to announce both the criteria and the 
enterprise definition for the RPA wing beddown.
    And that puts us into the scoring period. And in the 
summer, we will have the scoring completed. That's the plan.
    So we'll be able to announce then the candidates. Then 
once, of course, the candidates are announced, we'll proceed 
with the site visits, which puts us into this coming winter, 
2016-2017 winter.
    We'll be teed up for the Secretary to make a decision for 
her preferred and reasonable alternatives, which then puts us 
into the National Environmental Policy Act (NEPA) process over 
the course of this summer of 2017.
    And we would hope to, over the course of summer 2017-2018, 
depending on how long the NEPA process takes, be able to 
announce the final beddown location or locations.
    Senator Hoeven. Okay, thank you.
    And then just a final comment, and that is that, on the 
Grand Forks Air Force Base, we have the Grand Sky technology 
park. It wouldn't happen without your leadership and the 
leadership of Secretary James, former Assistant Secretary 
Ferguson, and many others.
    So I just want to say to the civilian leadership in Air 
Force, I really appreciate your good work and how you're going 
about getting things done and being creative looking to the 
future, innovative, looking at these public-private 
partnerships, not only to strengthen the force but to leverage 
resources at a time when we need to do it.
    So again, of course, we appreciate the leadership of our 
men and women in the Air Force, General Welsh and everybody 
else. They are fantastic, as they've always been fantastic. But 
I want to make a special point to thank the civilian leadership 
in the Air Force as well. We appreciate it very much.
    Ms. Ballentine. Thank you very much, sir. That's always 
appreciated to hear.
    Senator Hoeven. Thank you.
    Senator Kirk. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I also want to echo my thanks for all of you being here.
    I'm going to start with you, Mr. Potochney, and it deals 
with the question that Senator Udall raised on a drone that 
crashed over 2 years ago. The cleanup hasn't been done--Navy 
mission, Air Force plane, Army site.
    The thought occurred thought to me, it's been 2.5 years. 
I've got a farm. It's in the middle of an Air Force military 
operations area (MOA)--not in the middle, on the edge of it.
    If the same thing would have happened there on private 
property, would it have been 2 years for the cleanup under the 
same circumstances? I hope not.
    Mr. Potochney. I hope not as well.
    Senator Tester. So what I would say is that you guys are 
three branches of the same arm, and it really kind of worries 
me on different things. I mean, we're fighting a war on terror 
out there. You guys are in the middle of that. And if we can't 
work to do something simple like this, we got problems. So I 
just want to point that out.
    Now I want to talk about the BRAC. All four of you talked 
about BRAC, so just let me ask you a couple questions. And you 
can answer a simple yes or no, or however you want to do it.
    If we do another round of BRAC, will it improve readiness 
or will it take away from our readiness?
    Mr. Potochney. I'd say it will improve readiness, yes. It 
will improve readiness, and I'd be happy to explain why.
    Ms. Hammack. It'll improve readiness for the Army.
    Mr. Iselin. And the Navy wouldn't support any 
recommendation that didn't improve readiness.
    Senator Tester. That's good to know.
    Ms. Ballentine. Absolutely improve readiness.
    Senator Tester. And tell me why, Mr. Potochney.

                                  BRAC

    Mr. Potochney. Well, for one thing, we wouldn't be spending 
money on facilities that we don't need.
    Senator Tester. Okay.
    Mr. Potochney. That's important.
    The second reason is it would allow us to make changes. We 
have an evolving force structure. We have an evolving threat.
    Senator Tester. Yes.
    Mr. Potochney. Technology changes. We need to adapt to it. 
And a periodic review of our infrastructure, I think, is a 
reasonable thing for us to do.
    Senator Tester. Okay.
    For the Army, for a BRAC, do you have any idea on how many 
of your facilities would be mothballed?
    Ms. Hammack. We do not have an idea, sir, as to the number 
of facilities that would be mothballed, but our target would be 
to achieve savings of about $0.5 billion.
    Senator Tester. Over how many years?
    Ms. Hammack. Over approximately a 5- to 6-year period, so 
we would expect a return on investment. It is usually stated 
the kind of return on investment that would be targeted in the 
BRAC round, but this would be an efficiency BRAC round, not a 
restructuring BRAC round.
    Senator Tester. Right.
    Ms. Hammack. We'd be looking at consolidations, which would 
give us this kind of return on investment and position us for 
the future that we envision.
    Senator Tester. Okay. So over 5 or 6 years, in the Army's 
case, you anticipate it would save $500 million.
    Ms. Hammack. And then it would continue to save $500 
million annually.
    Senator Tester. It's $500 million.
    Ms. Hammack. Million dollars, yes, one-half billion.
    Senator Tester. Okay.
    The Navy took severe cuts in previous BRACs. We wouldn't 
even ask that question of you.
    How about the Air Force?
    Ms. Ballentine. I can't tell you specifically the number of 
bases we would or will close in the next round of BRAC. I can 
give you a historic perspective.
    Senator Tester. Yes.
    Ms. Ballentine. We've never closed more than about 8 
percent of our excess capacity, and we've averaged around eight 
bases per BRAC round, some major, some minor. I should say 
averaged eight installations, not necessarily full bases, as 
you think of bases.
    Senator Tester. Right. What kind of savings?
    Ms. Ballentine. Our returns on investment have averaged 
between 3 to 5 years, and we would anticipate at least that 
good this time, because we have such significant excess 
infrastructure.
    We are very supportive of new legislation that would put 
boundaries on high return on investment.
    Senator Tester. Can you give me a dollar figure?
    Mr. Potochney. Sir, if I could add, for the Department?
    Senator Tester. Sure.
    Mr. Potochney. Based on taking the average of the 1993 and 
1995 rounds, which were excess capacity rounds and inflating 
those dollars up, we're looking at saving across the Department 
$2 billion a year after they're implemented.
    Senator Tester. $2 billion a year.
    Mr. Potochney. $2 billion a year, and with an investment of 
approaching $7 billion upfront and then $2 billion a year 
forever.
    Senator Tester. And the $7 billion would be used for 
repurposing?
    Mr. Potochney. For repurposing, building the construction 
at receiving sites, moving people, severance pay, you name it.
    Senator Tester. Okay.
    I do have some issues that are more parochial. I will put 
those forward to you in writing to get back to me. It deals 
with Malmstrom Air Force Base weapons storage facility, what 
Senator Hoeven talked about, about the hangars for the 
helicopters.
    I just have one more question for you, Mr. Potochney, and 
that is, you noted about 12 percent of the DoD facilities were 
in poor condition, 15 percent in failing condition, that one of 
four facilities need major repairs or replacement. Even more 
concerning, you note that a number of facilities slipping from 
poor to failing is going up instead of going down.
    Given the current budget constraints, how does the 
Department plan to reverse the continuing deterioration of 
existing facilities and address them in the near term?
    Mr. Potochney. Through the most astute prioritization 
approach that we can exercise.
    Senator Tester. And do you have that done now?
    Mr. Potochney. We're doing that, and we'll continue to do 
it. It just becomes more important as our budgets go down.
    Senator Tester. Okay. So we're looking at a budget here, 
and you're looking at spending it, which is what your job is 
and it is what our job is.
    Mr. Potochney. Yes, sir.
    Senator Tester. Correct me if I'm out of bounds here, you 
should have a short- and long-term plan for facilities, and 
what kind of monies are needed, and where they're needed moving 
forward. And I am making the assumption, you correct me if I'm 
wrong, that this budget is going to address some of both, some 
of the short-, some of the long-term needs that are out there. 
Is that correct?
    Mr. Potochney. That's right.
    Senator Tester. And do you feel this budget is adequate?
    Mr. Potochney. No, I do not.
    Senator Tester. How much is it inadequate by?
    Mr. Potochney. I think the services can each tell you what 
they need to spend above what they could right now. But I would 
say it's inadequate because we have facilities in failing 
condition.
    Senator Tester. Domestically.
    Mr. Potochney. Domestic and----
    Senator Tester. And international, too.
    Mr. Potochney. Right.
    Senator Tester. Could you get back to me with an idea on 
how much this is--I mean, you told me how much we could save 
with the BRAC. You ought to be able to tell me how much this is 
underfunded. You can do that. I've got head nods behind you, 
and probably at the table, too.
    So if you could do that, I would appreciate that.
    [The information follows:]
    The Department of Defense's goal is to fund facilities sustainment 
at 90 percent of the Facility Sustainment Model forecasted requirement. 
For fiscal year 2017, the Department would need an additional $1.6 
billion to achieve the sustainment goal. Sustainment provides the 
annual maintenance needs of the real property portfolio. It does not 
address the growing backlog of maintenance and repairs that have been 
deferred. The Department's fiscal year 2015 Financial Statement 
reported its Deferred Maintenance and Repair backlog for real property 
exceeds $140 billion.

    Senator Tester. I appreciate your guys' commitment to the 
country. I very much do. And for those of you who served, your 
service to the country. And thank you for being here today.
    Thank you, Mr. Chairman.
    Senator Kirk. Peter, let me just follow up with my top 
priority, making sure that we could withstand or repel a 
missile attack by Iran against the United States.
    My question to you is on the MILCON for Deveselu, Romania, 
which happens to be right underneath the flight path of a 
missile aimed at New York from Iran.
    Mr. Potochney. I'm sorry, sir, the question is?
    Senator Kirk. I wanted to get an update from you on the 
MILCON for----
    Mr. Potochney. Can I do that for the record, sir? I would 
rather give you----
    Mr. Iselin. Sir, I can answer that.
    Senator Kirk. Thank you.
    Mr. Iselin. With strong support from the Army Corps of 
Engineers, those facilities in Romania are complete, and the 
forces are there.
    And your question during your opening remarks about Poland, 
we expect two MILCONs. One has just been awarded, and the other 
will be awarded in a couple of months, to get after the 
facility in Poland.
    Senator Kirk. Anybody else? Anything else, Jon?
    Senator Tester. Just thank you all.
    Senator Kirk. I think we can wrap up.
    Let me thank our witnesses for coming.
    And thanks, Senator Tester. I thank all the members of the 
subcommittee, and say that the record will remain open until 
the close of business on Tuesday, April 13.

                          SUBCOMMITTEE RECESS

    Senator Kirk. And we will stand adjourned.
    [Whereupon, at 11:51 a.m., Thursday, April 7, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]
</pre></body></html>
